<html>
<title> - THE RESILIENT HOMELAND: BROADENING THE HOMELAND SECURITY STRATEGY</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]



 
                        THE RESILIENT HOMELAND:
               BROADENING THE HOMELAND SECURITY STRATEGY

=======================================================================



                                HEARING

                               before the

                     COMMITTEE ON HOMELAND SECURITY

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

                              MAY 6, 2008

                               __________

                           Serial No. 110-110

                               __________

       Printed for the use of the Committee on Homeland Security

[GRAPHIC] [TIFF OMITTED] 


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html

                               __________


                     U.S. GOVERNMENT PRINTING OFFICE

42-876 PDF                 WASHINGTON DC:  2008
---------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing
Office  Internet: bookstore.gpo.gov Phone: toll free (866)512-1800
DC area (202)512-1800  Fax: (202) 512-2250 Mail Stop SSOP, 
Washington, DC 20402-0001


                     COMMITTEE ON HOMELAND SECURITY

               Bennie G. Thompson, Mississippi, Chairman

Loretta Sanchez, California          Peter T. King, New York
Edward J. Markey, Massachusetts      Lamar Smith, Texas
Norman D. Dicks, Washington          Christopher Shays, Connecticut
Jane Harman, California              Mark E. Souder, Indiana
Peter A. DeFazio, Oregon             Tom Davis, Virginia
Nita M. Lowey, New York              Daniel E. Lungren, California
Eleanor Holmes Norton, District of   Mike Rogers, Alabama
Columbia                             David G. Reichert, Washington
Zoe Lofgren, California              Michael T. McCaul, Texas
Sheila Jackson Lee, Texas            Charles W. Dent, Pennsylvania
Donna M. Christensen, U.S. Virgin    Ginny Brown-Waite, Florida
Islands                              Gus M. Bilirakis, Florida
Bob Etheridge, North Carolina        David Davis, Tennessee
James R. Langevin, Rhode Island      Paul C. Broun, Georgia
Henry Cuellar, Texas                 Candice S. Miller, Michigan
Christopher P. Carney, Pennsylvania
Yvette D. Clarke, New York
Al Green, Texas
Ed Perlmutter, Colorado
Bill Pascrell, Jr., New Jersey

       Jessica Herrera-Flanigan, Staff Director & General Counsel

                     Rosaline Cohen, Chief Counsel

                     Michael Twinchek, Chief Clerk

                Robert O'Connor, Minority Staff Director

                                  (II)


                            C O N T E N T S

                              ----------                              
                                                                   Page

                               Statements

The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Chairman, Committee on 
  Homeland Security..............................................     1
The Honorable Peter T. King, a Representative in Congress From 
  the State of New York, and Ranking Member, Committee on 
  Homeland Security..............................................     2
The Honorable Sheila Jackson Lee, a Representative in Congress 
  From the State of Texas........................................     3

                               Witnesses

The Honorable Stewart A. Baker, Assistant Secretary for Policy, 
  Department of Homeland Security:
  Oral Statement.................................................     4
  Prepared Statement.............................................     6
Dr. Yossi Sheffi, Professor of Engineering, Massachusetts 
  Institute of Technology:
  Oral Statement.................................................     9
  Prepared Statement.............................................    11
Mr. Erroll G. Southers, Assistant Chief, Homeland Security and 
  Intelligence Division, Los Angeles World Airports Police 
  Department:
  Oral Statement.................................................    13
  Prepared Statement.............................................    15
Ms. Susan R. Bailey, Ph.D., Vice President, Global Network 
  Operations Planning, AT&T, Inc.:
  Oral Statement.................................................    22
  Prepared Statement.............................................    24
Ms. Mary Arnold, Vice President--Government Relations, SAP 
  America:
  Oral Statement.................................................    27
  Prepared Statement.............................................    29

                                Appendix

Questions From Honorable Mike Rogers.............................    55


   THE RESILIENT HOMELAND: BROADENING THE HOMELAND SECURITY STRATEGY

                              ----------                              


                          Tuesday, May 6, 2008

                     U.S. House of Representatives,
                            Committee on Homeland Security,
                                                    Washington, DC.
    The committee met, pursuant to call, at 10 a.m., in Room 
311, Cannon House Office Building, Hon. Bennie G. Thompson 
[chairman of the committee] presiding.
    Present: Representatives Thompson, Harman, Lowey, Norton, 
Jackson Lee, Christensen, Etheridge, Cuellar, Carney, Green, 
Pascrell, King, Lungren, Rogers, Reichert, Dent, and Miller.
    Chairman Thompson. The Committee on Homeland Security will 
come to order.
    I would like to thank Ms. Jackson Lee for agreeing to 
tentatively step in in place of the Chair in case my flight did 
not get in, but believe it or not, we got in on time.
    Thank you very much, Ms. Jackson Lee, for agreeing.
    The committee is meeting today to receive testimony from 
the Department of Homeland Security and from key stakeholders 
to better understand their efforts to communicate, to 
coordinate and to collaborate on resilience as a critical part 
of their mission and operation.
    I would like to welcome this panel of esteemed individuals 
who are here to testify before the Committee on Homeland 
Security about resiliency.
    As the world becomes increasingly more flat, a primary 
distinction between a competitive nation and those nations left 
behind will be a nation's resilience. ``Resilience'' is 
commonly defined as the ability to recover or adjust easily to 
misfortune or to change. As it relates to the Department and 
its functions, resilience is a practice which will allow a 
quick return to effective, if not 100 percent normal, 
operations in the wake of an attack or a disaster. Today, we 
will hear from key partners on this issue--the private sector, 
one of the country's busiest airports and a leading airport--on 
resilience.
    Our Nation's success is in the hands of our critical 
partners, and we have a role to play. Of the Nation's critical 
infrastructure, 85 percent, is owned or operated by the private 
sector. The business community must have cutting-edge 
technology in order to effectively bounce back. Colleges and 
universities must provide sound research on the latest 
technologies and must develop curricula to train the next 
generation of homeland security experts.
    Under my leadership, the committee has taken steps to 
further the resilience of our Nation's critical infrastructure. 
Understanding that we all have a role to play, this committee 
has taken the lead on making the necessary legislative changes.
    Earlier this year, the committee adopted and reported out 
the Chemical Facility Antiterrorism Act of 2008, which included 
the promotion of inherently safer technology to lower the 
possible consequences of an attack or of an accident at a 
facility. Last year, H.R. 1, or the 9/11 bill, was signed into 
law, and it included a title that promotes the Private Sector 
Preparedness Voluntary Certification Program, which encourages 
stakeholders to adopt standards that ensure effective 
continuity. Just last week, the Subcommittee on Emergency 
Communications, Preparedness, and Response marked up H.R. 5890, 
the Citizen and Community Preparedness Act of 2008, a bill that 
supports citizen preparedness, which is the cornerstone of a 
resilient homeland.
    On the other hand, since 9/11, this administration has 
focused solely on preventing the next attack as opposed to how 
best to recover should an incident occur. That, of course, is 
not the best approach. We must ensure that the Department is 
properly communicating, collaborating and coordinating with key 
stakeholders and critical partners to make sure that we, as a 
Nation, are prepared for what to do after an attack.
    Resilience offers an effective metric: time. We know that 
companies can measure how long they will be down in the wake of 
a particular disaster and can work to minimize that time. So it 
makes sense that the ability to measure downtime makes 
resilience a good security policy. Simply put, the longer our 
economic sector is down, the more the terrorists will brag that 
they are successful.
    I know that resilience is not universally applicable, but 
where it is resilient, the Department must promote resilience.
    In closing, promoting resilience requires honesty with the 
American people. It is through that honesty that we can provide 
this Nation's citizens with freedom from fear. It also ensures 
the involvement of critical stakeholders and keeping America 
strong.
    The Chair now recognizes the ranking member of the full 
committee, the gentleman from New York, Mr. King, for an 
opening statement.
    Mr. King. Thank you, Mr. Chairman. I am glad you made your 
plane. It is always good to have you here.
    Very seriously, I want to thank you for holding this 
hearing. Obviously, resiliency is an important component of the 
whole homeland security effort. As you pointed out in your 
remarks, 85 percent of the infrastructure--of the critical 
infrastructure, is privately owned; and that is probably what 
separates or that is probably the largest distinction between 
homeland security and the traditional overseas threats we face.
    Until September 11, certainly our concept of security was 
that we would have the military protect us, and it was 
primarily an overseas operation, done through the Defense 
Department. With Homeland Security, we realize how much of a 
factor not just local governments have but also private 
industry, the private sector. You are right, resilience is 
absolutely essential if we are to prevail against terrorism in 
all its forms. Of course, the longer we are down, the greater 
the victory it will be for an Islamic terrorist attack.
    Now, certainly in New York, we have seen resiliency. We saw 
the police and firefighters after September 11. We saw the New 
York Stock Exchange open within approximately 1 week of the 
attacks on the World Trade Center. We saw the clearing of the 
area at Ground Zero in less than 8 months when people were 
projecting 2 years, but the fact is, more can be done, more 
must be done.
    I know the Department of Homeland Security works within the 
whole concept of continuity of government. Certainly we in the 
Congress have to work also on the continuity of government. 
There are so many elements to this, as to how long it can take 
us and the various sectors to bounce back as quickly as 
possible.
    So I look forward to the testimony.
    I want to especially, on a side note, thank Secretary Baker 
for the work he has done lately as far as certain 9/11 victims 
in New York. It took a lot of guts and ingenuity on your part. 
I truly appreciate that, and I will do all I can to support 
your efforts as we go forward.
    With that, I yield back, and I look forward to the 
testimony.
    Chairman Thompson. All members of the committee are 
reminded that, under committee rules, opening statements may be 
submitted for the record.
    [The statement of Hon. Jackson Lee follows:]
             Prepared Statement of Hon. Sheila Jackson Lee
    As we approach the 7-year anniversary of the attacks on September 
11, 2001, and the 3-year anniversary of Hurrican Katrina, one of the 
most devastating hurricanes in our Nation's history, and reflect upon 
the Federal Government's response, I think it is a very appropriate 
time to critically re-examine our capacity for response, recovery, and 
resilience.
    Of the Nation's critical infrastructure assets, 85% are owned or 
operated by the private sector. Furthermore, a February 2006 report 
entitled ``The Federal Response to Hurricane Katrina: Lessons Learned'' 
states that the Federal Government should recognize that the private 
sector often performs certain functions more efficiently and 
effectively than the government because of the expertise and experience 
in applying successful business models. Thus, the private sector plays 
an integral role in our resilience efforts.
    However, we also need to hear from DHS because we cannot only rely 
on private solutions to public harms. The government should not 
abrogate its responsibility over the general welfare of its citizens, 
and all levels of government (Federal, State, and local) must do a 
better job of coordinating and ensuring that recovery, response, and 
resilience efforts are made and delivered in a more comprehensive and 
efficient manner in the wake of attacks, disasters, or disruptions. DHS 
must lead the effort to implement policies which mitigate the effects 
of an attack, disaster, or disruption and ensure that people, systems, 
and assets are operating effectively immediately after such an 
eventuality.

    Chairman Thompson. Let me at the outset ask that, if you 
have a cell phone, please put it on vibrate or Mr. Twinchek is 
authorized to handcuff whoever's phone rings and will drag him 
out of the committee room. Please, honor our rules. Phones are 
not to be on audible, and we will hope that you will respect 
the rules.
    I welcome our panel of witnesses. Our first witness, the 
Honorable Stewart Baker, is Assistant Secretary for Policy at 
the Department of Homeland Security. Mr. Baker will discuss how 
the Department is promoting resilience and is communicating, 
coordinating and collaborating with critical stakeholders.
    Our second witness, Dr. Yossi Sheffi----
    Mr. Sheffi. Close enough.
    Chairman Thompson. Close enough? All right--is a Professor 
of Engineering at the Massachusetts Institute of Technology. He 
is an expert in promoting resiliency, who will discuss the 
importance of investing in resilience, which can result in 
heightened security and can help stakeholders gain an 
economically competitive advantage.
    Our third witness is Erroll Southers, Chief of Homeland 
Security and Intelligence, Los Angeles World Airports Police 
Department. Chief Southers will demonstrate how local 
governments are implementing policies of resilience to ensure 
the continuity of operation.
    Our fourth witness is Dr. Susan Bailey, Vice President of 
Global Network Operations Planning, AT&T. Dr. Bailey will 
outline how her company's approach to protecting its network 
and in responding to disasters is a best practice model.
    Our fifth witness is Mary Arnold, Vice President, 
Government Relations, SAP America. Ms. Arnold will broadly 
discuss resilience and the global supply chain.
    The committee is pleased to have you here as our panel of 
witnesses. Without objection, the witnesses' full statements 
will be inserted in the record.
    I now recognize each witness to summarize their statements 
for 5 minutes, beginning with Assistant Secretary Baker.

  STATEMENT OF HON. STEWART A. BAKER, ASSISTANT SECRETARY FOR 
            POLICY, DEPARTMENT OF HOMELAND SECURITY

    Mr. Baker. Thank you, Chairman Thompson, Ranking Member 
King and distinguished members of the committee. I am pleased 
to appear before you today to talk about how the Department of 
Homeland Security can build a resilient homeland.
    Everyone, I believe, understands the Department's primary 
mission to be preventing acts of terrorism; we must make every 
effort to stop an attack. But I think everyone also recognizes 
that that is not enough. We have to do more. We have to 
recognize that stopping every terrorist attack may not be 
possible, and certainly, we are not going to stop every natural 
disaster. That means that we have to be prepared.
    We have to plan for and be prepared for what happens the 
day after, the hour after, the minute after an attack or a 
natural disaster. We have to be prepared in a way that allows 
us to bounce back quickly from the consequences of the attack 
or the disaster. That is ``resilience,'' and it is a vital part 
of our mission as the Department of Homeland Security.
    I want to begin by giving credit to the committee for 
having a hearing on this topic. It is an absolutely essential 
topic. It is one that should inform every aspect of the 
Department's policy, and it is not something that receives 
attention every day. We are looking forward to the month of 
hearings that will address these issues across the board at the 
Department.
    As we have thought about how to promote resilience, at 
least in the Department, we have begun with what we think are 
our strengths as a Nation. We are a free and independent 
people, and we are served by a free market, and those actually 
turn out to be the central elements of a resilient response to 
disaster. There is no government in the world that can respond 
as creatively and as quickly as individuals who are concerned 
with the well-being of their families, of their businesses and 
of their communities. What we need to do as a government is to 
play a role that allows those individuals, that allows those 
businesses to respond quickly and creatively on their own to 
disasters, but in a framework that we have created that will 
encourage creativity and will give people the tools that they 
need to respond.
    So, as we have thought about resilience, we think of it in 
terms of providing tools, including new technologies, to 
individuals and businesses so they can respond creatively as 
individuals and businesses; and second, creating the kind of 
order and infrastructure that allow people to focus on the 
response to the disaster and not on self-protection, not on 
simply trying to make their telephones work.
    I will give just two examples of the kinds of things that 
we think contribute to resilience; and then, of course, after 
the opening statements, I will be glad to elaborate in response 
to questions.
    Information: The kinds of information that people need to 
respond on their own, and creatively, to disasters, I think was 
vividly illustrated during the California wildfires that we had 
just recently when the government used reverse 911 to send 
warnings to people, based on where their homes were, about the 
progress of the fires so that they could send them evacuation 
messages that were tailored specifically to where they were. 
That is the taking of technology we are very familiar with, 
911, flipping it around and using it to send messages to people 
so they can evacuate on their own instead of the government's 
taking responsibility for trying to evacuate each person. 
Reverse 911 is, I think, just an example of the kinds of 
technologies that we can make available to people in a disaster 
that will allow them to respond much more flexibly.
    The other kinds of technologies that we are hoping to bring 
to bear to foster resilience include instant messaging, short 
message service--SMS texting, it is called, for those of you 
who do not have teenage children--geographic information 
systems and video, Google maps, and Twitter--blogging by cell 
phone. All of those are tools that, in an emergency, can help 
people respond, to understand where the danger is, what kinds 
of responses are available and that can allow them to quickly 
self-organize and self-rescue.
    The government also, I think, has a role--in addition to 
sponsoring some of these new technologies--in providing the 
infrastructure of order and the basic communications techniques 
that people will need in order to most effectively self-
organize and self-rescue.
    I think we all remember many of the difficulties that were 
faced during the Katrina effort, to recover from Katrina, and 
the concerns that were raised by public order breakdowns and 
the extent of the effort that people put into protecting 
themselves from what were thought to be breakdowns in order. We 
are looking at the possibility--and I have asked the Assistant 
Secretary for State and Local Law Enforcement to look at it--of 
using volunteers from other State and local law enforcement 
agencies to come to the rescue of neighboring jurisdictions 
that need urgent assistance.
    I will stop there, and I will be glad to answer questions.
    Chairman Thompson. Thank you. We will allow you to 
elaborate during the question and answer period.
    [The prepared statement of Mr. Baker follows:]
                  Prepared Statement of Stewart Baker
                              May 6, 2008
    Chairman Thompson, Ranking Member King, and distinguished members 
of the Committee, I am pleased to appear before you today to discuss 
how the Department of Homeland Security (DHS) can build a resilient 
homeland.
                               resilience
    Stopping terrorism is a key mission of the Department of Homeland 
Security. We must make every effort to prevent an attack, but we must 
do more. As a Nation, we must be able to withstand a blow and then 
bounce back. That's resilience.
    Along with planning and preparation, resilience is a part of our 
approach to homeland security. Resilience is stressed in the 
administration's recently-released, second-generation National Strategy 
for Homeland Security, as well as the National Response Framework and 
the National Incident Management System. Resilience--of our people, our 
infrastructure, our economy, our entire Nation--is an essential element 
of ensuring the safety and security of the homeland.
    Some say that we need to characterize our national efforts to 
secure the homeland as ``resilience,'' as opposed to ``preparedness,'' 
or even ``homeland security.'' We should not spend too much time on a 
purely semantic argument, but there is no doubt that resilience--
described by some as our ability to ``bend but not break,'' or the 
ability to absorb the impact of a catastrophe without losing the 
capacity to function--represents an important dimension in our security 
efforts.
    A focus on resilience has value in part because it forces us to 
acknowledge the limits of government capability. It requires us to 
admit that some disasters cannot be avoided. It also requires us to 
acknowledge that, faced with disaster, most of our citizens, 
businesses, and other institutions will take action to rescue 
themselves and others. No government can respond as quickly and as 
creatively as individuals concerned with the well-being of their 
families, their businesses, and their communities. That is the source 
of our resilience as a country. While government plays a crucial role 
as well, perhaps its most important role is creating conditions that 
allow the creativity and ingenuity of individuals and businesses to 
flourish.
    At the end of the day, building a resilient homeland requires us to 
trust our citizens. We must inform them--and trust them to inform 
others. We must equip them with the right tools and technologies--and 
trust them to use those tools to help themselves and others. I would 
like to highlight three concrete ways in which the Federal government 
is creating conditions that foster national resilience: (1) 
Disseminating information that allow individuals to act quickly and 
wisely; (2) maintaining order; and (3) ensuring the availability of a 
core infrastructure that individuals will rely on. For the remainder of 
this testimony, I will offer examples, based on past and present 
threats, of ways that DHS is creating these three preconditions for a 
resilient Nation.
                              information
    Ordinary American citizens are our strongest asset in protecting 
the Nation and ensuring our common security. In order to maximize this 
potential, however, citizens need information so they can make informed 
decisions. We can unlock powerful, self-organizing responses to 
disasters if we can get good information to individuals quickly. New 
technologies are creating new ways to deliver good information about 
disasters to the people who need it most. Our job is to identify these 
technologies and deploy them where they will do the most good.
    When confronted with emergencies or natural disasters, such as the 
wildfires that raged through San Diego and Los Angeles counties last 
October or the tornadoes that hit the southern United States, residents 
often dial 911 as their first course of action. They are seeking timely 
and accurate information. There's nothing new about that. But national 
reverse 911 capability is new, and it is the kind of technology that 
fosters resilience. Developed by a private company, Reverse 911 uses a 
combination of database and GIS mapping technologies to deliver 
outbound warnings to communities and organizations at risk. Reverse 911 
played a key role in rescue efforts during the California fires. 
Automated alert messages were sent to thousands of people 
simultaneously, warning those who were in the path of rapidly advancing 
fires. Those citizens then took informed action on their own, providing 
greater resilience in the face of the threat.
    A number of Federal agencies, including DHS, the Department of 
Transportation, and the Federal Communications Commission, are working 
on initiatives to make 911 systems more robust, with ability to 
seamlessly link in advanced technologies with better backup capacity 
and recovery capabilities. ``Next Generation E911'' refers to the 
technologies, such as voice over IP (VOIP); instant messaging, short 
message service messaging, Wi-Fi, geographic information systems and 
video, that will allow a broader array of interconnected networks to 
comprehensively support emergency services--from public access to those 
services, to the facilitation of those services, to the delivery of the 
emergency information to dispatchers and first responders.
    A resilient response depends not just on individual citizens but on 
businesses. If disaster strikes a major refinery in the United States, 
we could rely on government agencies in Washington to divert supplies 
from elsewhere to cover the needs of the stricken refinery's customers. 
Or we could rely on the marketplace to make the adjustments that are 
needed.
    In most cases, the marketplace will be more adaptive and more 
resilient than a response that depends on government. But, like 
individuals, businesses are likely to need information that is in the 
hands of government. To create the conditions for resilience, 
government needs to communicate reliable, timely, and factual 
information to businesses. That is the goal of Ready Business, part of 
the Department's Ready campaign, a national public service advertising 
campaign designed to educate and empower Americans to prepare for and 
respond to emergencies. Ready Business provides guidance to small- to 
medium-size businesses regarding which tools and resources are 
necessary to plan to stay in business, talk to their employees, and 
protect their investment.
    In preparing for incidents that might affect the flow of trade 
across our borders, the Department has worked with the private sector 
through venues like the Commercial Operations Advisory Committee and 
the Trade Support Network to collect information on what the trade 
community needs to know to make decisions following an incident that 
affects the flow of trade. U.S. Customs and Border Protection (CBP) 
created a web-based communication framework to ensure that we can get 
pertinent information to stakeholders as soon as it becomes available. 
It is called the Unified Business Resumption Message and it is 
available on the CBP website as well as via Remote Subscription 
Service. While this message template was originally created for the 
land environment, it has now been tailored to specific modes and there 
are six live websites for northern and southern border highway and 
rail, air and maritime. This message is also available through List 
Serve e-mail based messaging, which sends mode specific messages to the 
e-mail subscriber.
    Sometimes the information people need is not about a fast-moving 
crisis; sometimes they need information about how to prepare for a 
particularly dangerous new risk. For instance, there are biological 
risks, natural or manmade, that fall outside the ordinary experience of 
the American public. If we expect the public to respond creatively and 
effectively to these risks, we need to give them the information they 
need about the risk.
    At the same time, biological risks are a classic example of a 
problem that requires a responsible, resilient response by individuals. 
Relying entirely on government to address the risk is the opposite of 
resilience.
    Let me explain by looking at a biological risk that is of 
particular concern--an anthrax attack. If the United States suffers an 
aerosolized anthrax attack, a few hours could make a tremendous 
difference in the attack's magnitude. Studies indicate that the most 
prudent response to such an attack is for those who were exposed to 
take ciprofloxacin or doxycycline.\1\ \2\ \3\ If that is done within 48 
hours of exposure, practically everyone will recover. After two days, 
though, every day of delay means additional casualties. In fact, if 
medication is delayed by five days, a large majority of those who were 
exposed will die. So we need to get medicine into our citizens' hands 
almost immediately after an attack.
---------------------------------------------------------------------------
    \1\ ``Public Health Response to an Anthrax Attack: An Evaluation of 
Vaccination Policy Options''; Prasith Baccam and Michael Boechler, 
Biosecurity and Bioterrorism: Biodefense Strategy, Practice and 
Science, vol. 5, no. 1, 2007, pp. 26-34.
    \2\ ``Emergency Response to an Anthrax Attack''; Lawrence M. Wein, 
David L. Craft, and Edward H. Kaplan, Proceedings of the National 
Academy of Sciences, April 1, 2003.
    \3\ ``Systematic Review: A Century of Inhalational Anthrax Cases 
from 1900 to 2005''; Holty, Bravata, Liu, Olshen, McDonald, Owens, 
Annals of Internal Medicine, American College of Physicians, February 
21, 2006, vol. 144, no. 4, pp. 270-280.
---------------------------------------------------------------------------
    What is a resilient response to this problem? Not, I submit, a 
response that depends entirely on government. Any response that 
completely relies on the government to distribute medicine to people is 
fragile. Every organizational failure--every delay in delivering the 
medicine, every confusion about who will take which pallets to which 
distribution centers, every miscommunication about where citizens 
should go to get their supplies--could result in loss of life. That is 
the opposite of resilient. Instead, we need to provide citizens with 
the information they need to respond individually and responsibly to 
the threat. To the extent possible, we need to encourage citizens to 
prepare in advance by responsibly maintaining their own supply of cipro 
or doxy for use in an anthrax emergency.
    There are risks in an approach that trusts citizens to treat such a 
supply responsibly. Overuse of antibiotics has severe public health 
consequences. But so would an aerosolized anthrax attack. DHS is 
working with Health and Human Services (HHS) to identify the best 
options for making sure that public citizens, first responders, and 
federal employees have cipro/doxy in case of an aerosolized anthrax 
attack. We are considering all options, including an FDA-approved 
emergency home medical kit, but that might be several years down the 
road.
                                 order
    Resilience also depends on our ability to maintain order. If our 
citizens do not have confidence that they will be safe, that social 
order will be maintained, then their energies will be concentrated on 
protecting themselves from a breakdown in social order and not on 
responding to the disaster itself. The more confident Americans are in 
government's ability to ensure order, the more resilient our society 
becomes.
    As our National Strategy for Homeland Security explains, we are 
continuing to develop and strengthen comprehensive and effective 
continuity programs to ensure the preservation of our government under 
the Constitution and the continuing performance of national essential 
functions--those government roles that are necessary to lead and 
sustain the Nation during and following a catastrophic emergency. A 
national approach to continuity also requires that State, local, and 
Tribal governments work to ensure that they are able to maintain or 
rapidly resume effective functioning during and after catastrophic 
incidents and are able to interact effectively with each other and the 
Federal Government. Likewise, we strongly encourage the private sector 
to conduct business continuity planning that recognizes 
interdependencies and complements governmental efforts--doing so not 
only helps secure the United States, but also makes good long-term 
business sense for individual companies. Such integrated and 
comprehensive planning is essential to protecting and preserving lives 
and livelihoods and maintaining our robust economy during crises.
    In many cases, local and State forces are entirely sufficient to 
maintain order in the midst of a disaster. But some disasters will 
strain those resources past the breaking point. To address that 
problem, as directed by Congress, we are studying the efficacy of 
establishing specialized law enforcement deployment teams (LEDTs) from 
neighboring jurisdictions who would be available to assist State, 
local, and tribal governments in responding to natural disasters and 
acts of terrorism. We know that the best people to assist State and 
local law enforcement in restoring and maintaining order are other 
State and local law enforcement officers. These LEDT teams could be 
designed to help avoid the confusion that resulted when law enforcement 
agencies from around the country responded to Hurricane Katrina in an 
unorganized manner. Without a coordinating mechanism, Louisiana and New 
Orleans law enforcement teams were forced to deploy out-of-State law 
enforcement units ``on the fly'' rather than requesting the specific 
teams they needed. LEDTs could help provide an organized system that 
would allow State and local law enforcement to assist each other in 
quickly resuming normal police services to an area hit by a terrorist 
attack or natural disaster.
                             infrastructure
    Finally, the ability of individuals to respond quickly to crises 
will be greatly enhanced if they can rely on certain core 
infrastructure.
    An old way of thinking about ensuring the ability of key 
infrastructure to survive terrorist attacks or natural disasters 
involved investing in redundant and duplicative infrastructure. As 
noted in our updated homeland security strategy, however, we must 
instead focus on the resilience of whole systems--an approach that 
centers on investments that make systems better able to absorb the 
impact of an event without losing the capacity to function. While this 
might include the building of redundant assets, resilience is often 
attained through the dispersal of key functions across multiple service 
providers, flexible supply chains, and related systems.
    No infrastructure is more important to a resilient, self-organizing 
response than telecommunications and information networks. To build a 
resilient response, we need to make sure that these networks continue 
to function in a crisis.
    Take the example of a pandemic and dangerous influenza. We know 
that one is almost certain to strike again, though we don't know when. 
The pandemic of 1918 had a larger impact on the population of the 
United States than any other single event in the twentieth century. One 
of the lessons we learned from that pandemic was the value of social 
distancing. Those communities with the most disciplined social 
distancing regimes exhibited the lowest overall mortalities. Social 
distancing may be even more important in a future pandemic.
    Information networks can make social distancing more practical. 
Telecommuting via the Internet will allow Americans to keep the economy 
functioning while avoiding crowds and contagion. However, for 
technology-enabled distancing to work, information technology 
infrastructure must have the capacity to support a large number of 
telecommuters. We must also consider how to ensure that the network's 
bandwidth is not oversubscribed in an emergency.
    We must also make sure that the infrastructure can withstand 
attacks made over our networks. DHS understands that determined and 
well-resourced cyber adversaries can find their way into most networks. 
Improving the resilience of private industry and the government to 
limit the duration and mission impact of successful attacks or cyber 
incidents is thus a core component of our overall strategy.
    Currently, DHS and the Department of Treasury are working with the 
Financial Services Sector Coordinating Council Subcommittee for 
Research and Development, along with ChicagoFIRST, an organization 
dedicated to improving the resilience of financial infrastructure in 
Chicago, to develop a risk management tool for the finance sector. This 
tool is designed to help create a computer simulation of a financial 
enterprise and its value chains, and how different financial 
institutions interconnect with others.
    Once it is finalized, the tool will allow organizations to create 
and run multi-party disruption scenarios tailored to their individual 
business models, using their own proprietary data as well as generic 
data for the rest of the financial sector. In this way, they can find 
out specifically how a cyber security event or attack will affect not 
only their own business, but also learn how the responses of other 
institutions (including the government) might impact themselves, other 
in their value chain, and in the sector at large. This improves 
resilience because it helps ensure all institutions that share a common 
cyber security incident will make informed response decisions that 
solve the problem with as little negative impact on the sector as 
possible.
    No single financial company would build such a tool and share it 
with competitors. However, because of support from DHS, the entire 
financial sector will be able to improve its resilience by being able 
to assess and protect itself against emerging cyber security threats.
                               conclusion
    As stated in the second-generation Strategy, ``Recognizing that the 
future is uncertain and that we cannot envision or prepare for every 
potential threat, we must understand and accept a certain level of risk 
as a permanent condition.'' Ensuring our Nation's resilience in the 
face of all threats is an essential element of our risk mitigation 
strategy. Our citizens are resourceful and creative in responding to 
disaster. We need to give them the tools that allow them to use that 
creativity--good information, social order, and a functioning 
communications network.

    Chairman Thompson. I now recognize Dr. Sheffi to summarize 
his statement for 5 minutes.

   STATEMENT OF DR. YOSSI SHEFFI, PROFESSOR OF ENGINEERING, 
             MASSACHUSETTS INSTITUTE OF TECHNOLOGY

    Mr. Sheffi. Thank you very much, Mr. Chairman. Thank you 
very much, committee members.
    I define ``resilience,'' as was just mentioned, as the 
ability to bounce back from large-scale disruptions. My 
comments are based on a large research project at MIT, of 4 
years, that resulted in a book called the Resilient Enterprise, 
that mainly looked at how companies should plan and should work 
toward bouncing back from large-scale disruption and how their 
supply chains should bounce back.
    Before we talk about it, I really have kind of divided all 
types of disruption into random events--earthquakes, 
hurricanes, accidents, acts of negligence and, finally, 
intentional disruptions. Intentional disruptions, of course, 
are terrorism, but one can learn a lot from industrial action, 
from sabotage, from lots of other actions when there is a smart 
adversary on the other side, because those are different. We 
can talk about why in a minute.
    Some of the compounding effects when you have large-scale 
disruptions are--first, in many of these cases, there is public 
fear. If you think about 911, if you think about SARS, if you 
think about Chernobyl, you know they are issues of public fear 
which sometimes lead--this may be less popular here--to wrong 
government reaction, government reaction that exacerbates the 
situation--not always, of course, but in many cases. Again, we 
can talk about many examples from other countries from the 
United States, where government reaction actually made a 
situation worse.
    Two more points: We live in a connected world, and its 
disruptions usually promulgate very quickly throughout the 
Nation, throughout the world.
    Finally, I just want to say that what the probability 
usually for a specific disruption or for a specific day or for 
a specific point is very small when one runs a global 
enterprise like General Motors or Procter & Gamble or Intel.
    The probability that something happens sometimes is not 
small at all; it is pretty significant. That kind of leads to 
the whole notion of resilience. It will happen. It does happen. 
The question is how to respond.
    The first step, of course, as was mentioned, is trying to 
avoid a disruption in the first place. This was the focus of 
the Department of Homeland Security's specifically looking at 
terrorist attacks, but if you talk about, you know, random 
events and accidents, the whole idea there is resilience, how 
to bounce back, because one can hardly influence the 
probability or the likelihood of a hurricane's hitting. The 
question is how to respond to this.
    In some sense, we are starting to shift our thinking about 
intentional disruption, like terrorism, to exactly the same 
mode of thinking. Some of this will happen. How do we respond?
    It does not have to happen in the homeland. The homeland 
will be affected by a large-scale disruption of supply chains. 
It can happen in many other places--in a large port, in a large 
airport, anywhere in the world.
    The second step is, of course, implementing a detection 
system. One thing that was not mentioned--I mean, the worst 
disruption is not what people think about, a nuclear holocaust, 
but it is a disruption when the organization under attack does 
not know that they are under attack until it is too late. Think 
about a biological agent, a chemical agent, that does not 
reveal itself until enough people are affected.
    Basically, when you think about disruption, you think about 
two ways to prepare for a response. The first one is 
redundancy; the second is flexibility. Those are really the 
only two classes of actions that one can take.
    Redundancy is having extra inventory, extra capacity, an 
extra of something. It is an expensive way to do it, but we do 
it in many cases.
    The other way to think about it is to build flexibility, to 
build the ability to respond. Now, most of my work is in the 
private sector, and I have a whole book that talks about how 
supply chains should build in flexibility so they can respond 
to all kinds of events regardless of the type of event because 
the reason for the disruption does not matter. The important 
thing is that a port is down, a warehouse is down; and when 
information technology is down, how do you respond to this?
    So there are a lot of technical ways to respond to this, 
and I talk about them in my book. Let me just mention a few 
that have to do with corporate culture. Because aside from all 
of the technical and how you build processes, there is an issue 
of how to build corporate culture, which is based on continuous 
communication, based on distributing power, decision-making 
power, to the lowest level in the organization.
    It turns out that many organizations where people are 
passionate about what they do turn out to be very resilient. 
There is an element of difference to expertise--again, I do not 
have time to explain it--when you see it in control towers, in 
chemical plants, in nuclear plants. When something goes wrong, 
you see that people suddenly do not pay attention to the 
managers or to the FAA or whatever. They start taking 
instructions from the veteran people in the tower. They start 
taking instruction from the gunny sergeant in the foxhole 
rather than, you know, from the lieutenant.
    A good organization, a resilient organization, recognizes 
it. It allows it. It encourages it. It drills for it.
    Finally, let me just say that, you know, drilling, 
conditioning, conditioning for disruption--I mean, when we are 
in grade school, and we are told what is the theory of getting 
out if there is a fire, everybody is instructed to go down. So 
there is nothing like exercising it, drilling it in terms of 
getting ready.
    Let me stop here, and I will be happy to answer questions 
later.
    Chairman Thompson. Thank you very much for your testimony.
    [The prepared statement of Mr. Sheffi follows:]
                   Prepared Statement of Yossi Sheffi
                              May 6, 2008
            resilience: what it is and how to achieve it \1\
---------------------------------------------------------------------------
    \1\ Much more information, including detailed analyses, case 
studies, numerous examples and recommendations for action are included 
in my book ``The Resilient Enterprise: Overcoming Vulnerability for 
Competitive Advantage'' (MIT Press, 2005).
---------------------------------------------------------------------------
    My research takes a supply chain perspective on corporate 
preparedness and response to high-impact/low-probability disruptions. 
The supply chain of an organization includes the enterprise itself as 
well as the web of companies and entities that support its operations 
and service delivery.
    The focus of my writings is on resilience--the ability to bounce 
back from large scale disruptions. In particular, it demonstrates how 
investments in resilience can be turned into a competitive advantage.
    When thinking about the nature of vulnerability and how to build 
resilience in organizations, one should consider first a framework for 
defining vulnerability and prioritizing risks. Vulnerability is defined 
as the combination of disruption likelihood and the resilience of the 
company to such disruption--whether it can recover and how quickly. 
This framework can be used to prioritize all the disruption risks a 
company faces and thus prioritize the planning for response.
    All disruptions can be traced to several generic causes:
  <bullet> Random events. These are natural occurrences such as floods, 
        earthquakes, droughts, etc. Given their frequency, insurance 
        companies can calculate likelihood and create insurance pools.
  <bullet> Accidents. Accidents are typically the result of multiple 
        causes. There is, however, a large body of literature on 
        accident avoidance, based on ``near miss'' analysis and the 
        ``safety pyramid.'' The experience which this literature is 
        based on includes the aviation, chemical and nuclear 
        industries.
  <bullet> Negligence. Including non-compliance with regulations or 
        standards as well as not paying attention to shifting public 
        attitudes regarding corporate social responsibility.
  <bullet> Intentional disruptions. These include terrorist attacks 
        about also industrial actions, industrial espionage and 
        sabotage. Intentional disruptions are different due the ``smart 
        adversary'' on the other side; they adapt when defensive 
        measures are put in place.
    Compounding effects of large scale disruptions include the 
following:
  <bullet> In many cases there is significant public fear (think about 
        SARS, 9/11, Chernobyl)
  <bullet> Government reaction, which has to come quickly in cases 
        involving public fear, may exacerbate the situation (border 
        closer after 9/11; UK response to the foot and mouth disease, 
        Japanese government reaction to the Kobe earthquake, etc.)
  <bullet> Living in a connected world, large scale disruptions have 
        cascading effects worldwide
  <bullet> While the likelihood of individual disaster is small, the 
        likelihood of some disaster taking place somewhere sometime is 
        not insignificant.
    The first and most important step in dealing with disruptions is 
working to avoid them. It is difficult to avoid natural phenomena and 
there is significant work on avoiding accidents. Avoiding intentional 
disruptions is the realm of security, however, where one has to focus 
on the following:
  <bullet> Layering the defense;
  <bullet> Balancing the defensive measures;
  <bullet> Investing in security in accordance with risk 
        (``profiling'');
  <bullet> Collaborating across enterprises, agencies and the 
        citizenry;
  <bullet> Creating a security culture;
  <bullet> Practice, practice, practice.
    The second step in building resilience is the implementation of a 
detection system. The most dangerous disruption is the one that is not 
detected until it is too late. Early detection can trigger early 
response and, in most cases, a more effective response.
    Lastly, the planning and preparation should lay the foundations for 
a collaborative response. Building joint process, getting to know all 
organizations involved in a response, assigning specific roles. Of 
particular importance are public-private partnerships, the utilization 
of volunteers.
    There are basically only two ways to prepare for responding after a 
disruption hits: building in redundancy and building in flexibility. 
Redundancy is the first line of defense in case of a disruption. Safety 
stock of parts and finished goods, spare capacity and multiple 
suppliers, extra trained personnel, all provide a cushion to absorb 
some impact. Redundancy, however, is expensive even though there are 
various forms of minimizing the impact of extra resources and under-
utilization. A better strategy is to develop flexibility.
    Flexibility has many facets. Consider first, there is the paradox 
of flexibility: the more standardized many operations and procedures 
are, the more flexibility they afford. Thus, standard parts, processes, 
products and procedure, create the ability of their users to be 
flexible since the users can count on the standards and build on them. 
Such standardization allows for interchangeability and thus moving 
resources from where they are to where they are needed in case of a 
disruption. Just as important, however, is the development of a culture 
of flexibility. This involves the creation of certain human resources 
expectations and job definitions as well as cross-training.
    The most interesting aspect of building flexibility in an 
organization is that unlike other resilience measures, flexibility 
helps companies in the competitive positioning. The reason is that 
markets around the world are changing at a faster and faster pace. A 
company that builds in the ability to respond to supply disruption 
(creating supply/demand imbalance) is automatically building in the 
ability to respond to demand fluctuations, winning market share.
    The important facet of a culture of flexibility and resilience 
include the following:
  <bullet> Continuous communications. Resilient companies communicate 
        obsessively so when a disruption takes place people know the 
        exact status of the enterprise. Resilient organizations also 
        have redundant communications capacity, knowing that the volume 
        of communications will grow substantially during a disruption. 
        (Examples: Dell; UPS; counter example: Jet Blue during February 
        2007)
  <bullet> Distributed power. Resilient organizations allow every 
        employee, regardless of rank to take decisive action in case of 
        a developing disruption. In the vast majority of the cases, the 
        ability of field personnel to take action quickly can limit the 
        scope of a developing disruption and therefore minimize 
        casualties and damage. (Examples: Toyota's Andon cord; U.S. 
        Navy carrier operations; World [Japanese retailer], U.S. Coast 
        Guard operations during Katrina)
  <bullet> Passion for work and the mission. Resilient organizations 
        demonstrate passionate commitment to the success of their 
        organization, causing employees to go ``above and beyond the 
        call of duty.'' (Examples: Schneider Trucking; Southwest 
        Airlines)
  <bullet> Deference to expertise. When a disruption is eminent or when 
        it takes place, resilient organizations understand that there 
        is a transfer of deference from rank to expertise (Examples: 
        U.S. Marines, FAA controllers, Chemical plants operators)
  <bullet> Conditioning for disruptions. Resilient organizations are 
        those that are disrupted continuously. They simply develop 
        expertise at continuous re-planning and getting back to normal 
        operations quickly. (Examples: UPS; FedEx; Counter examples of 
        introducing uncertainty: Intel)
     Culture is difficult to define and even more difficult to change. 
However, there have been spectacular examples of deep culture changes 
in society and in corporations. These include:
  <bullet> Safety. During the first part of the 20th century executives 
        used to believe that safety is too expensive to install in 
        plant leading to thousands of casualties in plant and railroad 
        yards. Federal regulations and society's attitude have changed 
        this perception dramatically.
  <bullet> Quality. The quality of U.S. cars used to embarrass U.S. 
        automotive executives who truly believed that quality is too 
        expansive to install in their cars. Toyota proved the fallacy 
        of this argument and changed the industrial landscape forever.
  <bullet> Social norms such as smoking as well as drinking and driving 
        have changed dramatically in the United States over the last 20 
        years.
    Thus, corporate and society's culture can change, and senior 
managers in industry, as well as the Government can have significant 
influence.

    Chairman Thompson. I now recognize Chief Southers to 
summarize his statement for 5 minutes.

  STATEMENT OF ERROLL G. SOUTHERS, ASSISTANT CHIEF, HOMELAND 
SECURITY AND INTELLIGENCE DIVISION, LOS ANGELES WORLD AIRPORTS 
                       POLICE DEPARTMENT

    Mr. Southers. Good morning, Mr. Chairman and members of the 
committee. Thank you very much for inviting me to appear before 
you this morning to discuss the international, 
interdisciplinary and risk-based counterterrorism strategies 
and best practices that we have engaged in at the Los Angeles 
World Airports.
    We placed a high priority on the opportunity to explore and 
to experiment with possible solutions. For, as my very dear 
friend and colleague in Israel, Dr. Boaz Ganor, reminds me, at 
the end of the day, all disciplines are related to terrorism. 
However, as my colleagues in London, with whom I spent last 
week at MI-5 and at the New Scotland Yard, will tell you, 
resiliency is also the capability to detect as well as to 
recover from disruptive challenges.
    This morning, I would like to share with you an innovative 
framework. Mayor Antonio Villaraigosa has embraced public 
safety as his No. 1 priority in the city of Los Angeles. During 
his tenure, crime has fallen to historically low levels. He is 
a staunch proponent in the area of counterterrorism as well.
    He has placed police and counterterrorism professionals in 
charge of security at the Los Angeles International Airport, an 
economic anchor for southern California. This resulted in a 
model consisting of a protective design under the new 
leadership of the paradigm of the Mayor's appointee, Director 
James T. Butts, Jr., a former 15-year police chief with 34 
years of law enforcement experience.
    LAX is safer today than it was 18 months ago. Under their 
leadership, we have embarked upon a more contemporary and 
holistic approach to airport policing. This prototype is 
capable of intelligence analysis, information-sharing, and it 
facilitates the seamless integration of critical infrastructure 
protection. We have embraced the mantra of thinking locally and 
of acting globally.
    This year, al Qaeda celebrates its 20th anniversary. A 
terrorist organization could not exist for two decades without 
being adaptive, innovative and flexible. The group's capacity 
to survive is also a direct reflection of both its resilience 
and the continued resonance of its ideology. However, attackers 
must conduct surveillance and reconnaissance in order to be 
successful.
    It is a proven fact that randomness increases security. A 
team of researchers at the Homeland Security Center for Risk 
and Economic Analysis of Terrorism Events, CREATE, led by Dr. 
Miland Tambe, work with our department to develop ARMOR, 
Assistant for Randomized Motoring Over Routes. This software 
randomizes our vehicle checkpoints along airport access roads 
and the deployment of our explosives detection K-9 teams 
throughout the airport.
    Peroxide-based explosives represent a new, major, growing 
challenge to homeland security. We are involved in an 
international project, researching the properties, detection 
technology and risk assessment of peroxide-based explosives. 
This research leverages the combined talents of world renowned 
Israeli experts at Technion, where Dr. Sheffi is an alum, the 
Israel Institute of Technology led by Dr. Ehud Keinan, the USC 
CREATE risk analysts, and our department in order to assess and 
improve peroxide explosive detection methodology and to 
optimize deployment strategies for resilience against these 
attacks.
    Last, LAX was selected by DHS to join San Francisco 
International Airport, SFO, as a pilot site for the chemical, 
biological, operational technology development, OTD, project. 
SFO will form the basis for completing a biological response 
plan, and that plan will be used at LAX. The goal of the LAX 
chemical OTD restoration project is to develop tools and 
processes to rapidly restore a critical transportation facility 
after a chemical agent attack. Upon completion, LAX will be the 
only airport facility in this country with vetted chemical and 
biological restoration plans.
    A few of our efforts which have aligned the international 
academic and operational counterterrorism community during the 
last month include briefing our best practices in Canada, Great 
Britain, Israel, Jordan, Spain, Thailand, and China. We have 
assessed the terrorism countermeasures in place for the 
upcoming 2008 Beijing Olympics. We have our command staff 
attending the Executive Program in Counterterrorism at USC and 
at the National Counterterrorism Academy.
    For us, war is finite. For terrorists, war is perpetual. 
Terrorist organizations are becoming increasingly sophisticated 
at communications and at security awareness. We should learn 
from failed as well as from successful attacks because, while 
our vulnerabilities are unlimited, our resources are not. 
Sustainability is a critical element of resiliency. Also, our 
intelligence efforts should work on building capacity from the 
bottom up, local law enforcement.
    The progress being made by the Department of Homeland 
Security at the direction of this committee has been 
noteworthy. It is an honor and a privilege to be invited to 
testify and to contribute to the collective national security 
effort.
    Mr. Chairman, this concludes my statement. I would be 
pleased to answer any questions you and the members may have at 
this time.
    Chairman Thompson. Thank you for your testimony.
    [The prepared statement of Mr. Southers follows:]
                Prepared Statement of Erroll G. Southers
                              May 6, 2008
    Chairman Thompson and members of the committee, thank you for 
inviting me to appear before you this morning to discuss the 
international, interdisciplinary and risk-based counter-terrorism 
strategies we are engaged in at the Los Angeles World Airports (LAWA). 
We have placed a high priority on the opportunity to explore and 
experiment with possible solutions. As my very dear Israeli colleague 
and Director of the Institute for Counter-Terrorism in Herzliya Dr. 
Boaz Ganor, always reminds us, ``At the end of the day, all disciplines 
are related to terrorism!''
    I would also like to extend my personal greetings to members 
Harman, Lundgrun and Sanchez who represent California and often utilize 
Los Angeles International Airport (LAX). Your leadership in overseeing 
the Department of Homeland security efforts has paid significant 
dividends. You and your colleagues have not been afraid to ask the 
difficult questions and the sense of urgency this committee has brought 
to homeland security issues has been a catalyst for productive change 
within homeland security at the Federal, State and local levels.
    Resiliency is defined as the capability of a system to maintain its 
functions and structure in the face of internal and external change. 
Developing enhanced resiliency is a rational strategy when the 
probability and specifics of a particular challenge are difficult to 
define.\1\ A resilient society is one that will not disintegrate in the 
face of adversity. Protecting property and successfully evacuating 
populations that are potentially in harm's way lessens the destructive 
impact of a natural disaster. Making infrastructures resilient renders 
them less attractive targets for terrorists. Preparing for the worst 
makes the worst less likely to happen.\2\ We cannot stop every 
terrorist attack. We can however, reduce the risk and enhance the 
capability for our continuity of operations.
---------------------------------------------------------------------------
    \1\ Allenby, Brad and Jonathan Fink. Toward Inherently Secure and 
Resilient Societies. Science Magazine, August 12, 2005.
    \2\ Flynn, Stephen. The Edge of Disaster. Random House, New York. 
(2007) p. 154.
---------------------------------------------------------------------------
    This morning, I would like to share an innovative framework with 
you. Mayor Antonio Villaraigosa has embraced public safety as his No. 1 
priority in the city of Los Angeles. During his tenure, crime has 
fallen to historically low levels. He is a staunch proponent in the 
area of counter terrorism as well. He has placed police and counter 
terrorism professionals in charge of security at Los Angeles 
International Airport, an economic anchor for southern California. This 
resulted in a model consisting of a protective design under the new 
leadership paradigm of the Mayor's appointee, Director James T. Butts, 
Jr., a former 15-year police chief and 34-year law enforcement 
professional. LAX today is safer than it was just 18 months ago. Under 
their leadership, we have embarked upon a more contemporary and 
holistic approach to airport policing. This prototype is capable of 
intelligence analysis, information sharing and facilitates the seamless 
integration of critical infrastructure protection. He has created an 
organizational structure and a counter-terrorism element unprecedented 
in the airport environment. By harnessing our strengths and leveraging 
our relationships, we have transformed the No. 1 airport terrorist 
target in the Nation into an operational think-tank, capable of placing 
theory into practice and creating a dynamic response to the 
transnational threat of terrorism. We have embraced the mantra of 
``thinking locally and acting globally.''
                              introduction
     Los Angeles International Airport is the world's busiest origin 
and destination (O&D) airport, meaning O&D passengers are those 
beginning or ending their trips in Southern California rather than 
using the airport for connecting flights. In total traffic, LAX is the 
fifth busiest airport in the world for passengers and ranks 11th in the 
world in air cargo tonnage handled. In 2007, the airlines of LAX served 
61.9 million passengers and handled 2 million tons of freight and mail. 
LAX handled 70 percent of the passengers, 75 percent of the air cargo, 
and 95 percent of the international passengers and cargo traffic in the 
five-county Southern California region.
    LAX also creates jobs. An estimated 59,000 jobs, directly 
attributable to LAX, are located on or near the airport. Approximately 
408,000 jobs, spread throughout the region, are attributable to LAX. 
The employment in the city of Los Angeles due to the airport is 
estimated to be 158,000 jobs. One in 20 jobs in Southern California is 
attributed to LAX operations.
    In fiscal terms, LAX is a dynamic airport which creates, attracts 
and supports economic activity throughout Southern California. 
International flights arriving at LAX from overseas make a substantial 
contribution to the economy of Southern California, adding $82.1 
billion in total economic output, plus 363,700 direct and indirect jobs 
with annual wages of $19.3 billion in Los Angeles, Orange, Riverside, 
San Bernardino, San Diego and Ventura Counties, according to a 2007 
study by the Los Angeles Economic Development Corporation. 
Unfortunately, this fiscal vitality also bodes well in terms of its 
attractiveness as a terrorist target.
                                history
    Terrorism has long been a serious threat to the air transportation 
system of the United States and other nations. ``Over 5,000 deaths have 
resulted from terrorist attacks on civil aviation since 1980; about 200 
deaths occurred in attacks on airports themselves, as opposed to 
aircraft.''\3\ Apart from the major changes in the Nation's defense 
posture, we know that the economic effects of the September 11, 2001 
terrorist attacks were relatively short-term in their impact. Thus, in 
one of the first studies undertaken at the Homeland Security Center for 
Risk and Economic Analysis of Terrorism Events (CREATE), we considered 
the short-term economic costs of an attack on the U.S. commercial air 
system.
---------------------------------------------------------------------------
    \3\ See the Memorial Institute for the Prevention of Terrorism 
(MIPT) Knowledge Base, online at http://www.tkb.org.
---------------------------------------------------------------------------
    We modeled a 7-day shut-down of the entire U.S. commercial air 
transportation system, followed by a 2-year period of recovery, using 
the post-September 11 experience of the system as a basis for our 
analysis. Our overall loss estimates for the 2 years range from $248 to 
$394 billion.\4\
---------------------------------------------------------------------------
    \4\ Gordon, Peter. The Economic Impacts of a Terrorist Attack on 
the U.S. Commercial Aviation System. Center for Risk and Economic 
Analysis of Terrorism Events (CREATE) Report No. 05-026. (2005)
---------------------------------------------------------------------------
    In another study of this catastrophic attack, the results concluded 
the following losses:
  <bullet> First day Wall Street losses: 16 percent
  <bullet> Gross amount traded per day: $4 trillion
  <bullet> Total loss from stocks = $640 billion
  <bullet> American daily income = $20 billion
  <bullet> First week loss = $140 billion
  <bullet> Total national loss = $780 billion
  <bullet> Building & Construction losses = $30 billion
  <bullet> Liquidated 170,000 employees from airline companies
  <bullet> American studies estimated 70 percent American people 
        suffering from depression
  <bullet> Intercontinental Hotel--20,000 job losses
    One would assume the researchers in this study represented a think 
tank or major research university. In fact, these figures were the 
results of an economic analysis articulated by Osama bin Laden, in his 
October 21, 2001 interview with Taysir Alluni, head of al-Jazeera's 
bureau in Kabul.\5\ Regardless of the mathematical accuracy of al 
Qaeda's study, they clearly appreciate the value of an attack beyond 
the loss of life.
---------------------------------------------------------------------------
    \5\ Lawrence, Bruce. Messages To The World, The Statements of Osama 
bin Laden. Verso, London and New York. (2005) pp. 111-112.
---------------------------------------------------------------------------
    Interestingly, LAX has been described by RAND as ``a leader in 
implementing new security measures.''\6\ It was one of the first major 
airports to implement a 100 percent baggage-screening program, a 
dedicated and high visibility police department, onsite bomb squad, the 
largest number of explosives detection canine teams at an airport in 
the world and a dispersed central terminal design. Despite this level 
of protection, LAX is viewed as an attractive target by some terrorist 
organizations having been targeted six (6) times--more than any other 
airport in the world!
---------------------------------------------------------------------------
    \6\ Stevens, Donald, Thomas Hamilton, Marvin Schaffer, Diana 
Dunham-Scott, Jamison Jo Medby, Edward W. Chan, John Gibson, Mel 
Eisman, Richard Mesic, Charles T. Kelley, Jr., Julie Kim, Tom 
LaTourrette, K. Jack Riley, Implementing Security Improvement Options 
at Los Angeles International Airport, Santa Monica, California: RAND 
Corporation, 2006.
---------------------------------------------------------------------------
    Since 1974, LAX has been the target of two bombings, two attempted 
bombings, one gun attack and one combination bombing/active shooter 
attack. In 1974, ``Alphabet Bomber'' Muharem Kurbegovic detonated a 
bomb in the LAX international terminal, killing three and injuring 
eight. A bomb exploded in 1980, in the China Airlines luggage 
processing facility, causing extensive damage but no injuries. In May 
1982, three members of the Armenian Secret Army for the Liberation of 
Armenia were arrested after placing a bomb at the Air Canada cargo 
office.
    Ahmed Ressam was caught crossing into the United States in 1999, 
with bomb-making equipment. His plan, later known as ``The Millennium 
Plot,'' was to detonate four timed luggage bombs inside and curbside at 
the Tom Bradley International Terminal (TBIT). My colleague and CNN 
terrorism analyst Peter Bergen, best known for his interview of Osama 
bin Laden believes, ``The millennium plotting in Canada in 1999 may 
have been part of Bin Laden's first serious attempt to implement a 
terrorist strike in the United States.'' Ressam has told the FBI that 
he conceived the idea to attack Los Angeles International Airport 
himself, but that bin Laden lieutenant Abu Zubaydah encouraged him and 
helped facilitate the operation.\7\
---------------------------------------------------------------------------
    \7\ Bergen, Peter L., The Osama bin Laden I Know. Free Press, New 
York, NY (2006) pp. 289-290.
---------------------------------------------------------------------------
    On July 4, 2002, Hesham Hadayet approached the El Al counter with 
two handguns, killing two and injuring six. In 2005, a radicalized al 
Qaeda based group formed in Folsom Prison, plotted to again attack the 
El Al ticket counter, in addition to the Israeli Consulate, two 
National Guard recruiting centers and several synagogues in 
simultaneous bombings and active shooter operations across Los Angeles. 
When the suspects were convicted, it was learned they admitted to being 
2 weeks away from executing the attacks. LAX remains a very attractive 
target.
    I have had the opportunity to visit and review the protective 
measures with my colleagues at several airports considered to be 
target-rich including; Ben Gurion in Israel, considered to be one of 
the world's most secure, Heathrow in Great Britain, the world's busiest 
airport and which recently opened a state-of-the-art terminal and 
Beijing International in China, which recently opened the world's 
largest terminal and will host the 2008 Olympic Games. We all agree on 
three basic realities--reducing the risk of terrorism and public safety 
is paramount, emergency response efficiency is critical and the 
continuity of operations subsequent to a natural or man-enabled event 
will have severe impact on the global economy.
       los angeles world airports police organizational response
    As Congresswoman Harman is uniquely aware, RAND Corporation was 
commissioned by Los Angeles World Airports to conduct a series of 
studies on options for protecting the airport from terrorism. RAND 
identified 11 major scenarios of attacks in the following ascending 
order: mortar attack, sniper attack, control tower bomb, MANPADS 
attack, air operations attack, public ground attack, curbside bomb 
attack, luggage bomb, large truck bomb, uninspected cargo bomb and 
insider planted bomb. The top 5 scenarios involve explosive devices, 
vehicle and/or employee access. The subsequent re-organization of our 
department is in direct response to the study. The Homeland Security 
and Intelligence Division is comprised of the Critical Infrastructure 
Protection Unit, Vulnerability Assessment and Analysis Unit, Emergency 
Services Unit, Dignitary Protection Unit, Canine Unit and the Security 
Credential Unit.
    This reorganization facilitates the effective response to the 5 
``major'' terror scenarios by reducing bureaucracy, increasing unit 
responsibility and ensuring management accountability. For example, the 
Security Credential Section is responsible for the processing, vetting 
and management of more than 40,000 LAX badge holders, more than 52,000 
for the Los Angeles World Airports, including Palmdale, Ontario and Van 
Nuys airport which happens to be the busiest general aviation airport 
in the nation. The new centralization of the badging process also lends 
itself to easy information sharing and analysis as it relates to our 
properties. In the midst of a recent event one morning when we thought 
an individual had boarded an outbound flight posing as an employee, it 
was the information from the Security Credential Unit that proved most 
valuable in the suspect elimination process before the diverted flight 
had even landed.
    In addition to the RAND study, we are routinely evaluated in a 
joint assessment by the TSA and FBI to determine our Man Portable 
Aerial Defense (MANPAD) vulnerabilities. We have also invited our 
colleagues from Ben Gurion Airport to evaluate our protective measures. 
Guided by the three studies we maintain a Critical Infrastructure 
Protection Unit and a Vulnerability Assessment and Analysis Unit, 
charged with meeting the goals of Homeland Security Presidential 
Directive-7, the identification, protection and prioritization of 
critical infrastructure and ensuring TSA Security Directive compliance 
respectively. These units also work in concert with our local, State 
and Federal regulatory airport partners monthly, as the Cargo Security 
Task Force, descending unannounced on cargo facilities to evaluate all 
personnel, security and safety related compliance issues.
                  terrorist operational planning cycle
     This year, al Qaeda celebrates its 20th anniversary. A terrorist 
organization could not survive for 2 decades without being adaptive, 
innovative and flexible. In fact, every attack in the last 4 years in 
Europe (except the Van Gogh murder) has had al Qaeda connectivity. 
Commercial aviation is the most institutionally hardened critical 
infrastructure since the attacks on September 11, yet it remains the 
most desirable target. Al Qaeda's global network has endured by its 
members strictly adhering to the principles of operational security.
    In addition to the al Qaeda threat, the death of Imad Mughniyah, by 
a bomb blast on February 12, 2008, has heightened our concerns 
regarding the threat of attack by Hezbollah. Mughniyah, a senior member 
of Hezbollah, was associated with the Beirut barracks and United States 
Embassy bombings in 1983, which killed over 350, as well as the 
kidnapping of dozens of foreigners in Lebanon in the 1980's. He was 
indicted in Argentina for his role in the 1992 Israeli Embassy attack 
in Buenos Aires.
    In response to this specific threat and the fact that El Al has 
been targeted 3 times since the new millennium, our Emergency Services 
Unit (ESU) provides special weapons and tactics security for El Al 
passengers during ticketing/check-in, escorts their busses to the 
terminal and remains on the airfield until the aircraft departs. In 
addition to their already unique skillset, all members of our ESU have 
completed the DHS Prevention & Response to Suicide Bombing Incidents 
Training Course. El Al has informed us LAX is the only airport outside 
of Israel that affords them this level of security.
    Terrorist groups, particularly al Qaeda, conduct surveillance and 
reconnaissance to select potential targets to gain strong situational 
awareness of the target's activities, design, facility vulnerabilities 
and security operations. Because part of the pre-operational 
surveillance involves establishing patterns, terrorists will conduct 
their surveillance multiple times. However, the more they conduct 
surveillance, the greater the chances of being observed themselves. If 
they are observed, their entire plan can be compromised by alerting 
security personnel to the fact that something is being planned.
    Al Qaeda training manuals, including the infamous ``Military 
Studies in the Jihad Against the Tyrants,'' and their online training 
magazines instruct operatives to perform surveillance, and even go so 
far as to discuss what type of information to gather. In July 2004, the 
arrest in Pakistan of an individual identified by U.S. officials as 
Mohammad Naeem Noor Khan revealed a personal computer that contained 
detailed information about potential economic targets in the United 
States. The targets included the New York Stock Exchange and Citigroup 
headquarters in New York, the International Monetary Fund and World 
Bank buildings in Washington, DC, and Prudential Financial headquarters 
in Newark, NJ. From the information on the computer, it appeared that 
the targets were under surveillance for an extended period.
     In the case of the aforementioned pre-attack planning cycle, there 
was a high degree of detail and awareness of site vulnerabilities, 
security operations and law enforcement and emergency response at the 
time the reports were written. In addition to intelligence obtained 
from surveillance, each of the surveillance reports exhibited extensive 
use of open-sources to obtain much of the background information on the 
target. It should be noted the report provided alternative targets 
should attacking the primary site prove to be logistically unfeasible. 
The focus on collecting data on alternate, less protected locations 
indicates al Qaeda's interest in softer targets. This may be reflective 
of al Qaeda's evolution from a centrally directed organization into a 
more decentralized structure possessing greater control over target 
selection.
    Surveillance can occur in as little as 1 week, to as long as 
several years prior to an attack and can be used to support target 
selection, mid-operation reconnaissance and final, pre-attack 
reconnaissance. Surveillance is typically conducted in a covert manner 
and can involve any number of collectors (surveillants) either on foot 
or in vehicles. Successful counter-surveillance can yield indications 
of an attack planning phase. The problem is separating ``terrorism'' 
from ``tourism.'' Herein lies the importance of employing a strategy 
that facilitates ``looking for the bombers and not the bombs.''
             automated license plate recognition technology
    Actionable intelligence, accompanied by education, awareness and 
technology are essential resources to be effective in these efforts. A 
debrief of the attack on the Kohbar Towers bombing, determined the 
target was surveilled more than 40 times over a 17-month period, by the 
same three attackers. On at least 10 of those reconnaissance missions, 
the attackers visited the site in the same vehicle.
    The fact that more than 50,000 vehicles enter LAX daily, makes 
vehicle surveillance a simple task, utilizing Automated License Plate 
Recognition (ALPR) technology. This is a proven method that 
automatically identifies license plate numbers on stationary or moving 
vehicles (at speeds of over 140 mph), captures images of the vehicle 
license plate and instantly checks those numbers against a data base. 
Every license plate scanned is compared to a list of ``vehicles of 
interest'' associated with auto theft, felony warrants, Amber Alerts, 
DOJ & NCIC downloads, parking violations, or any other license plate-
oriented databases. Our anticipated acquisition and implementation of 
this technology will essentially limit the capacity of attackers to use 
the roadways!
    The database can be designed to be triggered if the license plate 
entered the area based on frequency, time of day, day of the week, etc. 
Inasmuch as repeated trips are necessary for terrorists to obtain the 
desired situational awareness, this would be a useful countermeasure. 
Ben Gurion Airport has deployed this system on its main access road, in 
a toll-booth design, to capture the license plate of every vehicle 
entering the central terminal area. The system is also in use in Europe 
in Birmingham, Edinburgh and Glasgow Airports.
    A recent case suggests that given access to this technology, 
valuable investigative time could be significantly reduced. A rent-a-
car manager at an airport reported activity he found to be suspicious. 
The manager stated that during an 11-month period, four adult males of 
Middle Eastern ancestry rented vehicles numerous times and each time 
the vehicles were returned with excessively high mileage. An example 
provided revealed a vehicle had been rented for 10 days. The vehicle 
had been driven 3,848 miles during the rental period, which is 
considered excessive by rental car standards. Additionally, numerous 
employees of the rental car agency observed shopping bags containing 
new wrapped pre-paid cell phones in the vehicle, which were taken by 
the subjects with the rest of their personal property when they 
returned the rental vehicle.
    In this instance, if ALPR were deployed, we would know if the 
vehicle accessed our airport, the frequency of those ``visits,'' and 
the exact dates. Accompanied by the other available technology systems, 
we could organize and analyze vast quantities of structured and 
seemingly unrelated data, currently housed in various incompatible 
databases and record management systems, over a highly secure intranet-
based platform. Inasmuch as we contact and complete field interview 
cards, crime reports and obtain information from individuals from all 
over the world on a daily basis, makes LAX an incredible source of 
information.
                      create randomization project
    The Center for Risk and Economic Analysis of Terrorism Events 
(CREATE) is an interdisciplinary national research center based at the 
University of Southern California and funded by the Department of 
Homeland Security. The Center is focused on risk and economic analysis 
of the U.S. infrastructure and comprises a team of experts from several 
universities from across the country. It was the first of 13 existing 
Centers of Excellence in the Nation and the only Center whose grant has 
been renewed thus far.
    As previously described, the al-Qaeda planning cycle, depends on 
the comprehensive situational awareness acquired via pre-attack 
surveillance and reconnaissance of the intended target. It is most 
important for the attackers to determine the design and level of 
physical security, including protective policies, procedures and 
technology. A team of researchers at CREATE led by Dr. Miland Tambe, 
working with our department developed software that would offer 
assistance regarding the deployment of critical terrorism 
countermeasures. Dr. Tambe's expertise is in the area of Security in 
Multiagent Systems by Policy Randomization.
    It is a proven fact randomness increases security. Randomization 
methodology was theoretically proposed by CREATE to assist in the 
deployment strategy of unmanned aerial vehicle (UAV) flights over 
Afghanistan. The goal of our project was to leverage CREATE's success 
by randomizing vehicle checkpoints being deployed along airport access 
roads.
    The program, based on Bayesian Stackelberg game theory, was 
developed to allow for the input of certain constraints regarding the 
checkpoint, the avoidance of certain days for deployment and the 
necessity for the checkpoint to be in effect during specific times 
during the day. Based on these constraints, the program provided a 
randomized schedule, in conjunction with a mathematical measure of 
randomness. Additional features are added to the program to facilitate 
the input of the constraints and create a report at the end of a 
checkpoint in operation.
    Such scheduling is based on several requirements:
    (a) Scheduling must be randomized to avoid predictability;
    (b) Scheduling must take into account constraints of officers at 
        LAX;
    (c) Scheduling must take into account passenger load data;
    (d) Scheduling must also take into account other possible resource 
        constraints, dynamic shifts and so on.
    The USC CREATE team attacked this scheduling problem in a multi-
phased approach. The first phase focused on scheduling checkpoints, and 
in particular using the first two criteria mentioned above. The next 
step in the project incorporated the explosives detection canine team 
deployment into the program development. Inasmuch as LAWA maintains 32 
explosives detection canine teams, this asset renders LAX the perfect 
environment for this research. Upon completion, we anticipate 
leveraging the program for the purpose of randomizing the deployment of 
patrol, bicycle officers and other Airport Police resources.
    After several months of operation and in accordance with the 
National Infrastructure Protection Plan Risk Management Framework, we 
decided to develop an evaluation feedback loop consisting of graduate 
students, who unbeknownst to them, were challenged with testing the 
resiliency of the system. They played a game called ``Pirates and 
Treasures.'' The students were instructed to identify ways to breach 
the security of the system and were rewarded with points during the 
course of the game. These results were analyzed and provided the basis 
for a revision of the game theory algorithm inherent in ARMOR software.
    The results of this premier engagement in ``Translational 
Research,'' that is research which translates directly from the 
laboratory to the field and the practitioner, could not have been 
anticipated. We have received inquiries from a host of Federal agencies 
and countries as far away as India. We briefed the Transportation 
Security Administration last year in anticipation of the program being 
utilized to randomize the deployment of Federal Air Marshals on 
flights. Praveen Pachuri, the doctoral student who developed the 
algorithm, is being actively sought by a host of defense contractors as 
a result of the programs' success.
               peroxide-based explosives research project
    Peroxide based explosives, including TATP (triacetonetriperoxide), 
DADP (diacetonediperoxide) and HMTD (hexamethylenetriperoxide-diamine), 
represent a major, growing challenge to homeland security. The threat 
has been recently highlighted by a number of terrorist events 
worldwide, such as the 2005 attack on the London public transportation 
system, the intercepted 2006 terrorist plot to target airliners en 
route from London to the United States, and many car and suicide 
bombings in the Middle East.
    The Los Angeles World Airports Police Department is involved in an 
international project researching the ``properties, detection 
technology and risk assessment'' of peroxide-based explosives. The 
research leverages the combined talents of world-renowned Israeli 
explosives experts at Technion--Israel Institute of Technology, led by 
Dr. Ehud Keinan, USC CREATE risk analysts, led by Drs. Isaac Maya and 
Onur Bakir, and Los Angeles World Airports Police Department personnel 
in order to assess and improve peroxide explosive detection 
methodologies and optimize deployment strategies for those 
technologies.
    The United States has already experienced its first suicide bomber. 
In 2005, Joel Hinrichs, III, an Engineering graduate student at the 
University of Oklahoma, blew himself up outside of the school's 
Memorial Stadium. He was denied entry because he would not allow 
security personnel to examine the contents of his backpack which 
contained a TATP improvised explosive device, before entering the 
stadium with 84,000 people in attendance.
    Doubt was cast subsequent to this incident with regards to Mr. 
Hinrichs' intent or social network. Investigation reveals he 
constructed the bomb via an Internet recipe after he unsuccessfully 
attempted to purchase ammonium nitrate. Going to the football game 
should certainly demonstrate his intent, the fact that he attended a 
Mosque in Norman, Oklahoma visited by Zacarias Moussaoui, and September 
11 hijackers, Marwan Al-Shehhi and Mohammed Atta, would suggest 
indirect, if not direct connectivity to an environment with some very 
dangerous people.
    Altogether, TATP, HMTD and other peroxide-based explosives pose a 
multifaceted, intricate challenge to public security. As their density 
(0.5 g/mL) is similar to that of most common organic solids, such as 
white sugar, it is not possible to detect them by the CTX machines that 
are currently deployed in airports for the detection of conventional 
explosives. Although the most urgent need is the development of 
detection and identification methods, there are many other aspects of 
the problem that should be pursued. These include fast and reliable 
onsite neutralization of captured materials, comprehensive study of 
their chemistry and properties, including post-blast analysis and 
identification of the type, quality, manufacturing methods, as well as 
the origin of captured improvised explosive devices.
    The goals of the research project are articulated as follows:
    (a) Preparing a broad variety of plastic TATP explosives in order 
        to develop recommendations regarding their detection, 
        characterization and safe handling.
    (b) Identify and characterize the various polymorphic crystals of 
        TATP and develop reliable detection methodology utilizing XRD 
        technology.
    (c) Using formal risk assessment methodologies to analyze the 
        comparative costs and benefits of deploying peroxide-based 
        explosive detection technologies at the Los Angeles 
        International Airport and therefore, possibly other major 
        transportation infrastructures engaged in passenger screening 
        operations.
    chemical operational technology development restoration project
    LAX was selected by DHS to join San Francisco International Airport 
(SFO) as a pilot site for the Chemical/Biological Operational 
Technology Development (OTD) Project. SFO has been the primary partner 
airport for developing plans for Biological Incidents. Once that plan 
is developed it will be the basis for the completion of a Biological 
Restoration Plan for LAX. The goal of the LAX Chemical OTD Restoration 
Project is to develop tools and processes to rapidly restore a critical 
transportation facility after a chemical warfare agent attack. Upon 
completion, LAX will be the only airport facility with vetted chemical 
and biological restoration plans.
               airport police strategies and initiatives
    The Los Angeles World Airports Police initiatives have aligned the 
international academic and operational counter-terrorism community. We 
are part of a global network capable of identifying and disrupting the 
ability of attackers' efforts to recruit, fund, plan, surveil or 
execute terror operations. Our efforts to date include:
  <bullet> During this past year, our officers have studied and/or 
        delivered counter-terrorism briefs in Canada, Great Britain, 
        Israel, Jordan, Spain, Thailand, and China.
  <bullet> Airport Police hosts a bi-weekly Community Awareness Meeting 
        with area business owners, community groups and residents for 
        the purpose of sharing information related to crime activity, 
        law enforcement projects and other relevant airport information 
        available to us from our partners across the Nation.
  <bullet> Airport Police detectives are assigned to the Joint 
        Terrorism Task Force and the Joint Regional Intelligence 
        Center.
  <bullet> Our Canine Unit Officer-in-Charge was appointed the 
        International Liaison for the Detector Dogs World Congress 
        regarding all explosives detection canine matters.
  <bullet> We accepted an invitation to travel to Beijing, Shanghai and 
        Qingdao for the purpose of assessing the terrorism 
        countermeasures in place for the XXIX Olympiad.
  <bullet> Officers are enrolled in the Executive Program in Counter-
        Terrorism at USC and the Manhattan Institute National Counter-
        Terrorism Academy.
  <bullet> During terminal evacuations related to the detection of 
        ``possible improvised explosive devices'' (IEDs) identified at 
        screening stations, announcements to passengers articulate the 
        reason for the evacuation, efforts are made to provide a 
        comfortable environment, with seating and water if possible and 
        seniors and parents with children are given priority for re-
        entry into the terminal after the incident is resolved.
  <bullet> Airport police work in concert with the bomb squad and TSA 
        on every terminal IED-related evacuation to minimize the impact 
        to vehicular traffic in the central terminal area and expedite 
        the repopulation of the screening stations. All of these events 
        are timed and de-briefed.
    During my tenure as Deputy Director in the Governor's Office of 
Homeland Security, the resiliency of the Port of Los Angeles-Long Beach 
and LAX were regular topics of discussion. In response to the 9/11 
Commissions overall critique of our inadequate intelligence sharing 
capabilities; the ports created the Area Maritime Security Committee 
(AMSC). The AMSC consists of local, State and Federal intelligence 
professionals and first responders for the purpose of identifying 
vulnerabilities, determining possible risk-reduction strategies and 
engaging in training and exercises during scenarios to protect the 
maritime environment.
    As a result of the success of the AMSC, we transplanted the group 
to LAX in an effort to mirror the strategy with most of the same 
entities charged with responding to the threat at the ports. Director 
Butts co-chairs the Airport Security Advisory Committee, which has 
benefited from existing professional relationships, thus creating an 
institutional knowledge with expertise and experience focused on the 
protection of two extremely vital sites, other critical infrastructure 
in the region and the global importance incumbent upon their 
resiliency.
                  lawa security technology initiative
    In 2006, we initiated a comprehensive analysis of the three 
separate airport infrastructure vulnerability studies--RAND, TSA-FBI 
MANPADS Mitigation Report and the Ben Gurion Assessment. These 
evaluations not only examined security gaps, they recommended the most 
efficient and cost-effective solutions to enhancing security measures 
within the Los Angeles World Airport system. To that end the Security 
Technology Initiative is the technology infrastructure backbone that 
would integrate our current and long-term counter-terrorism efforts. We 
have hardened our security infrastructure and seek to improve our 
situational awareness through the implementation of advanced technology 
such as ALPR, smart video analytics, and perimeter intrusion detection 
systems.
                                closing
    For us, war is finite, for the terrorist war is perpetual. Osama 
bin Laden has identified a timeline of 1,400 years to accomplish his 
mission. In the meantime, terrorist organizations are becoming 
increasingly sophisticated in communications and security awareness. As 
an example, terrorists are leveraging terror trials and court testimony 
as an additional opportunity to identify our counter-terrorism 
investigative methodologies.
    Our intelligence efforts should work on building capacity from the 
bottom up--local law enforcement. Our success in deterring terrorist 
attacks rests with our ability to make the environment more difficult 
for attackers to operate. Timothy McVeigh, Eric Rudolph and the JIS 
group spawned in Folsom Prison were arrested as a result of good police 
work.
    Commercial aviation is the most institutionally hardened critical 
infrastructure since 9/11. Yet, last summer it was targeted again. We 
should learn from failed, as well as successful attacks because, while 
our vulnerabilities are unlimited, our resources are not. 
Sustainability is a critical element of resiliency.
    The need for the continuing support for the collaborative efforts 
of the Department of Homeland Security's Science and Technology 
Directorate and its Centers of Excellence is critical. We must 
facilitate the link between the laboratory and the operational world. 
Our best-practices clearly illustrate the potential when these 
relationships are realized.
    The progress being made by the Department of Homeland Security at 
the direction of this committee has been noteworthy. It is an honor and 
a privilege to be invited to testify and to contribute to the 
collective national security effort.

    Chairman Thompson. I now recognize Dr. Bailey to summarize 
her statement for 5 minutes.

  STATEMENT OF SUSAN R. BAILEY, PH.D., VICE PRESIDENT, GLOBAL 
             NETWORK OPERATIONS PLANNING, AT&T INC.

    Ms. Bailey. Thank you, Mr. Chairman, Ranking Member King 
and members of the committee.
    My name is Dr. Susan Bailey, and I am AT&T's Vice President 
for Global Network Operations Planning. In that role, I am 
responsible for designing AT&T's unified network operations 
model, which includes our network's business continuity and 
disaster recovery. In addition, I have direct operational 
experience in addressing some of the worst national disasters 
in recent years.
    As the Nation's largest communications company and as a 
major global carrier, AT&T is a critical link in keeping our 
society connected, especially during disasters. We recognize 
that within our footprint we provide lifeline and emergency 
communications services for the communities and people in our 
footprint. In addition, we also recognize that on our 
infrastructure, key government agencies and all of the major 
critical infrastructures in our economy provide or use our 
infrastructure for carrying their mission-critical applications 
and communications services, so we recognize firsthand that 
people's lives and safety, as well as the very function of our 
government and of our economy, depend on AT&T's ability to 
maintain our network infrastructure and on the services we 
provide.
    We take this responsibility very seriously, and we approach 
disaster preparedness as a fundamental operational requirement 
that we architect into the core of our network and in how we 
approach our operations.
    Now, AT&T focuses our business continuity approach on 
functional resiliency as distinguished from asset protection. 
We certainly do take action to protect our assets, but the 
notion of functional resiliency is that our mission-critical 
functions can carry forward and can be sustained despite the 
loss of individual assets. So we design our network, our work 
centers and the operational processes within them, as well as 
our support systems and our information technology, with backup 
plans and with alternate arrangements so that we can sustain 
those mission-critical applications and operations despite the 
loss of individual assets.
    Now, since it is very seasonal that the 2008 hurricane 
season is fast approaching, right around the corner, I thought 
I would say a few words about some of the things that AT&T is 
doing to prepare for the upcoming hurricane season.
    Now, since the hurricane season tends to impact the 
Southeast United States more significantly than other parts of 
the country, we have actually looked at our traffic volumes. 
Based on predictions of increased volumes on our wireless 
network, we have taken action to expand our capacity to be 
prepared for, you know, the increased load that we would 
project in a disaster scenario.
    In addition, hurricanes are largely power events for us 
where, you know, we lose commercial power and need to sustain 
our network despite the loss of commercial power. So we put a 
lot of energy up front into validating the readiness of our 
power and infrastructure with respect to having extended-life 
batteries, in topping off our fuel tanks, in testing our 
generators, and in deploying more generators both on a 
permanent basis as well as mobile generators that we can move 
around to our locations as we need to.
    In some cases, we have actually installed permanent 
generators that run on natural gas, which frees us up from the 
need of having to refuel those generators.
    Now, we maintain a large fleet of mobile disaster recovery 
trailers, that are basically central offices on wheels, along 
with emergency communication vehicles, mobile command centers, 
HAZMAT equipment, decontamination trailers. We look at the 
profile of where we have got that equipment as it is located in 
warehouses around the country and around the world, and we will 
actually preplan and will dispatch additional equipment toward 
the Southeast so it is ready to be deployed on short notice.
    Now, in the area of cybersecurity, AT&T has unique 
capabilities on both the prediction and the prevention, as well 
as on the mitigation and response. On the predictive side, we 
have the ability to pattern and to profile our network traffic 
on our Internet backbone, based on time of day, day of week and 
types of traffic from point to point. When we know what 
``normal'' looks like, we have the ability to take 
abnormalities such as hackers who are testing out their 
malicious code or who are probing the network, looking for 
vulnerabilities; and we use that ability to detect 
abnormalities, to give us that advanced alert, so that we can 
take action in advance to protect our network before the actual 
launch of a cyber attack.
    Now, on the mitigation and response side, we offer our 
customers a distributed denial of service remediation. A 
distributed denial of service attack is basically lots of 
traffic headed toward a particular machine or a particular 
Internet IP address that consumes that machine with having to 
respond to lots of brief inquiries. We have the ability from 
the core of our network to redirect traffic toward scrubbers 
that are imbedded within our network, and those scrubbers can 
then, based on the signature of the malicious attack traffic, 
filter out the bad traffic and then reinsert the good traffic 
back toward its ultimate destination.
    Thank you very much, and I am looking forward to 
entertaining questions.
    Chairman Thompson. Thank you for your testimony.
    [The prepared statement of Ms. Bailey follows:]
                 Prepared Statement of Susan R. Bailey
                              May 6, 2008
    My name is Dr. Susan R. Bailey. I am AT&T's Vice President, Global 
Network Operations Planning, located in Bedminster, New Jersey. I 
appreciate the opportunity to share ideas with Members of Congress and 
other industry participants to enhance America's homeland security 
capabilities.
    I have over 20 years of experience in developing, deploying and 
operating advanced communications technologies and support systems, and 
have held numerous positions in planning, network operations, and 
product research and development. In my current role, I develop the 
network operations model spanning all services and technologies for the 
entire company, including global and long distance services, regional 
access, wireless mobility, and video applications. I am, therefore, 
intimately familiar with AT&T's principles and methods for building and 
maintaining a robust communications infrastructure.
    As the Nation's largest communications company, AT&T is a critical 
link in keeping our society connected--especially during disasters. 
Among other things, we provide lifeline and emergency communications to 
millions of consumers and businesses; mission-critical support for 
government agencies and institutions; and robust communications 
networks and support for the full range of business enterprises, 
including in the healthcare, electric power and banking sectors. We 
know that, in many ways, peoples' lives and safety, as well as the 
function of our government and economy, depend on the services we 
provide. For these reasons, ensuring that our component of the Nation's 
infrastructure is sound and resilient is one of our top priorities.
    The following outlines AT&T's approach to protecting its network 
and responding to disasters, and includes some examples of that 
approach in action.
                          at&t's network reach
    AT&T operates one of the most extensive communications networks on 
the planet. We have deployed and maintain more than 500,000 miles of 
fiber in the United States, under the oceans, and around the world. 
Every day our network carries more than 16 petabytes of data--the 
equivalent of moving the entire written contents of the Library of 
Congress every 35 seconds. In the United States, we are the leading 
provider of broadband Internet access services; the leading wireless 
provider--able to offer 3G wireless broadband in 265 major metropolitan 
areas; and the leading provider of telephone service in rural areas. We 
have equipment deployed to serve 143 countries. All told, over 1 
billion devices are connected to AT&T's network, and we make data 
services available to 97% of the world economy.
    The breadth of AT&T's network allows us to provide unmatched 
quality across an unmatched range of services, but it also necessarily 
means that our capabilities are subject to a wide range of threats. 
These threats include power outages, hurricanes, typhoons, earthquakes, 
terrorist attacks, and even an otherwise innocuous fiber-seeking 
backhoe that accidentally strikes an underground cable. Moreover, we 
see indications of nearly 39 million potential cyber-attacks every 
month; while these do not result in physical damage, they can wreak 
havoc on the logic of a network that is not adequately defended. And, 
of course, health pandemics, transit disruptions, or work stoppages can 
affect our workforce, which in turn can directly impact our networks. 
We worry about and plan for all these incidents--and more.
     at&t's approach to business continuity and network resiliency
    AT&T is in the business of connecting people anywhere and any time. 
In order to connect people, continuity of operations is critical. The 
hallmark of our business continuity program is a common, structured 
approach to infrastructure design, management, and execution.
    Our enterprise business continuity paradigm focuses on protecting 
three types of assets:
    (1) The network itself, i.e., the computers, switches, routers and 
        fibers that carry our customers' data.
    (2) Work centers and the people who work in them, in particular 
        those that perform mission-critical help-desk and network 
        operations functions. We plan for the safe evacuation of our 
        people through emergency communications and evacuation plans. 
        And we plan for the recovery of mission-critical work 
        functions, such as customer help desk and network operations, 
        in alternate locations or arrangements.
    (3) Network management tools, such as network and customer 
        databases, ticketing systems, provisioning and alarm management 
        systems, and business process automation platforms.
More specifically, AT&T focuses on service or functional resiliency. At 
its core, this means the continued operation of a function despite the 
loss of certain assets and controlling the impact once a threat arises. 
This compares to a strategy that unduly emphasizes the elimination of 
all possible threats. We cannot prevent a tornado or earthquake--or a 
terrorist attack--from destroying one of our buildings. But we can 
protect the functions performed in that location, such as by 
maintaining an alternate site geographically distanced from the primary 
site. To be clear, we certainly do our fair share of asset protection, 
such as securing the physical environment along our fiber routes or 
employing building security. But no amount of protection can possibly 
guarantee that any asset can completely be protected.
                      at&t's philosophy in action
    Consistent with our general philosophy, we leverage technology to 
protect functions and the services despite failure and disasters. For 
example, the telecommunications infrastructure depends heavily on 
commercial power. We therefore build resiliency into our major offices 
by connecting them to two different and diverse electrical substations. 
In addition, we equip them with battery backup and auto-start 
generators for continuous operation in the absence of commercial power. 
This fundamental design has sustained us through even widespread power 
outages, such as the widespread power outage of 2003.\1\
---------------------------------------------------------------------------
    \1\ In order to provide continuous service in the face of a power 
outage, AT&T and other service providers require access to the impacted 
area to refuel generators and perform other tasks. Especially in 
connection with disaster situations, providers often need the help of 
the government to gain access to areas and obtain needed fuel and 
supplies. It would be worthwhile, therefore, to develop methods and 
systems, which should include necessary pre-approvals or 
certifications, to ensure that gaining access to critical 
infrastructure is a priority in any disaster scenario.
---------------------------------------------------------------------------
    In addition to diversity of power, we employ diversity of fiber and 
other equipment. For example, most of our fiber routes have a 
physically diverse, geographically separated alternate route. This 
physical fiber diversity extends all the way to building entrances. In 
addition, the fiber connections to our major central offices have two 
separate entrances at different places within the building. Likewise, 
customer applications or data storage solutions can be hosted in any of 
AT&T's 38 worldwide internet data centers, with backup and failover 
capacity to provide uninterrupted capability even in the face of the 
loss of an entire data center. Servers and databases for a given 
application can be deployed, for instance, in a data center on the west 
coast and another on the east coast, perhaps configured to share the 
load between them under normal operating conditions. If, for whatever 
reason, one of the centers fails, the other could pick up the load and 
continue with uninterrupted service.
    One of our most powerful assets to handle disasters of almost any 
kind is our fleet of more than 500 trailers equipped with all the gear 
we need to run our network--routers, switches, multiplexers and the 
like; these are mobile central offices. AT&T has been building and 
expanding this fleet for more than 15 years and so far has invested 
over $500 million in these disaster recovery assets. On a normal day, 
the trailers are stored in warehouses around the world. But they are 
not just collecting dust: they are right now connected to our network, 
monitored and managed, upgraded and repaired, just like any other 
element of our network. If we need any of the equipment, we can 
literally unplug a trailer, hook it up to a truck, and drive it to 
wherever we need it. And, we have software support that enables us to 
download all of the configurations that we use throughout our system 
almost instantly, which reduces the actual turn-up time at a site down 
to our objective of 72 hours. We test our disaster response capability 
four times per year so that we are ready to respond. In fact, at the 
same time as this hearing, AT&T will be conducting a simulated disaster 
scenario in Chicago.
    Perhaps the most storied use of our mobile network facilities was 
in connection with the horrific events of 9/11. Because our mobile 
equipment is capable of operating in the stead of even the largest of 
our major central offices, we were able to use them to recover our 
transport hub that was in the 6th sub-basement of the World Trade 
Center South Tower, which was totally destroyed, as well as support 
three switches in nearby buildings that were heavily damaged. We 
dispatched trailers to New York, and by noon that day they were setting 
up in a parking lot across the river in Jersey City. Within 48 hours, 
these trailers were completely installed, configured, and ready to 
accept traffic.
    Another dimension of the 9/11 disaster was the unprecedented 
traffic volume, all concentrated in and out of lower Manhattan, 
precisely where we had lost a major portion of our network capacity due 
to damage. Four hundred thirty-one million call attempts were made on 
our network on 9/11, which far outpaced our previous record day of 330 
million call attempts. Through our Global Network Operations Center, we 
rerouted all traffic not directly destined for lower Manhattan, and 
prioritized traffic to maximize our ability to deliver outbound calls 
from lower Manhattan. As a result, AT&T successfully delivered 96% of 
Government Emergency Telecommunications Service (GETS) calls on 9/11.
    Much of our effectiveness in disaster response and recovery results 
from our emphasis on training and practice. We run exercises of our 
work-center, network, and systems disaster recovery plans multiple 
times a year to ensure that we maintain a state of readiness. We learn 
from each one, and we keep our staff fresh on exactly what they need to 
do. This enables us to implement our plan quickly and efficiently when 
an unexpected event hits.
                        a note on cyber-security
    We treat cyber security as an integral part of our network 
operations model, and have invested significant resources to become the 
industry leader in securing our network and our customers from the full 
gamut of cyber threats. The diversity of our network and the services 
we provide has given us deep insight into the most effective means to 
combat cyber-crime and other threats. The raw quantity of data 
traversing our network allows us to identify and discern traffic 
patterns across a 24-hour day and a 7-day week. This gives us a unique 
ability to detect abnormalities that can suggest cyber crimes in the 
making. We have learned that worms and viruses rarely hit without any 
preceding indicators. We see the hackers testing and probing, looking 
for openings and vulnerabilities, and sometimes even rolling out their 
code on a limited basis to see how it works, days and weeks in advance 
of the full scale launch. Now that we understand these anomalies and 
how they can serve as important leading indicators, we use this 
information (and take advantage of the lead time it provides us) to 
take the action on our network and with our customers to load the 
filters and patches necessary to combat the hack or virus.
    In this regard, AT&T is pleased to offer our new network-based 
security services, which help our customers migrate away from a totally 
perimeter-based approach. Because placing security intelligence at the 
edge of the network or into individual applications is costly to scale 
and difficult to manage, a network-based approach is often superior, as 
it is more nimble and efficiently distributed. One example is our 
offering to protect customers from Distributed Denial of Service (DDOS) 
attacks. A DDOS attack involves large numbers of ``attackers'' (mostly 
infected PCs whose owners do not realize anything is wrong), sending 
large quantities of data, all destined for the ``victim'' machine, 
ultimately overwhelming it. For customers who purchase our DDOS 
protection capability, we can, from inside the backbone of our network, 
detect emerging DDOS attacks, redirect attack traffic to scrubbers 
inside our network that separate the good from the bad traffic, and in 
turn redirect the good traffic back to a customer's IP address so that 
the customer can sustain operation without even feeling the effects of 
an ongoing attack.
    I trust that the foregoing aids in your consideration of proper 
homeland security methods. AT&T looks forward to an ongoing discussion 
of these issues with the committee.

    Chairman Thompson. I now recognize Ms. Arnold to summarize 
her statement for 5 minutes.

STATEMENT OF MARY ARNOLD, VICE PRESIDENT--GOVERNMENT RELATIONS, 
                          SAP AMERICA

    Ms. Arnold. Thank you, Mr. Chairman, Ranking Member King 
and members of the committee.
    I am pleased to address the need to broaden U.S. homeland 
security policy to include resilience, which in simplest terms 
is the ability to resume activities after an attack or after a 
disaster like 9/11 or after a hurricane like Katrina. At this 
time, I have a longer version of my testimony which I would 
like to submit for the record.
    My name is Mary Arnold, and I am Vice President of 
Government Relations for SAP. SAP is the world's leading 
provider of business software solutions for government and for 
private enterprise. We have more than 14,500 supply chain 
management customers in all market sectors. Because business 
continuity and supply chain management are critical to our 
customers, we understand the need for information technology 
that provides resiliency and redundancy.
    Today, much of the global supply chain's critical 
components are in private hands. Certainly, U.S. industry needs 
to take a proactive role in developing, in deploying and in 
exercising plans that will ensure that a disruption in the 
supply chain will not result in a crippling blow to their 
respective businesses.
    Government is also a critical player. Although we cannot 
predict or prevent every potential disaster, we can identify 
our vulnerabilities in a variety of scenarios and can take 
steps to reduce them with the right information technology, 
redundancy solutions and a highly developed continuity of 
operations plans.
    Last month, I led a panel in New York with other corporate 
executives on how to build a resilient nation by enhancing 
security and in ensuring a strong economy. There were three 
very important lessons learned.
    First, there are no one-size-fits-all solutions. Supply 
chains link thousands of companies in hundreds of industries 
and in dozens of countries. Supply chains must work seamlessly 
across all of these boards. While there are core elements to 
all supply chains, what works for one company may not work for 
another. Critical components for success include flexibility, 
adaptivity and resilient solutions. Our public policy should 
encourage government and private industry to collaborate to 
achieve solutions that work globally.
    Second, we need to take an enterprise approach to 
resiliency through what we might call a ``resiliency chain.'' 
For example, during Hurricanes Katrina and Rita, a global 
chemical manufacturer required real-time information regarding 
goods and materials on ships scheduled to dock in Houston and 
in New Orleans. A primary concern was the risk to the 
environment should shipments become lost at sea. Because of the 
adaptive business network and their ability to monitor the 
supply chain from end to end in real time, the company was able 
to determine which ships were still in port, which were in 
transit and which had already reached Houston and New Orleans.
    Within 24 hours of Katrina's hitting the gulf coast, the 
company received the complete listing of container shipments 
that had arrived prior to the hurricane. Because the software 
was able to show when a container leaves a port, when it 
reaches its destination and when it clears Customs, this 
chemical company was able to determine the location of their 
ships in harm's way and reroute them accordingly.
    The third lesson: We need to consider how to incorporate 
our global trading partners into our resiliency chain planning. 
There are critical assets necessary for recovery located 
outside of the United States. These, too, could be vulnerable 
to natural or manmade disasters. Global collaboration will be 
necessary to ensure our ability to recover and to move forward.
    The government's role in resiliency chain planning is to 
balance the interest of stakeholders, to set broad objectives 
and strategies and to provide oversight. The private sector can 
provide the means and the execution. By working together and 
leveraging the strengths of each, we can accomplish a great 
deal to improve our national resilience.
    The private sector can be a great partner to the government 
in developing solutions to capitalize on existing resiliency 
chains. Using commercial, off-the-shelf technology products, 
the industry provides solutions which also reduce time, cost 
and complexity. Technology solutions to support resiliency 
chains, we believe, should have the following characteristics:
    The solutions must take in vast amounts of detailed data, 
analyze it and return valuable information to the user. These 
solutions also must integrate information across many large, 
interconnected enterprises.
    They must be based on global standards and must reflect an 
open architecture that can take in data from legacy systems as 
well as the latest technology solutions.
    Finally, such solutions must be technologically agnostic. 
They must work with one another, open standard technologies, 
and not be based on one mode of communication such as a hard-
wired telephone grid which may fail in a disaster.
    In conclusion, securing our homeland requires the ability 
to respond to and recover quickly from a catastrophic event. 
Strengthening the resilience of the Nation must be a critical 
component of our homeland security policy.
    In order to ensure resiliency and recovery, we must develop 
public-private partnerships that utilize the resources of both 
sectors and that play to their strengths. We must develop and 
deploy new technologies that will ensure that we build greater 
redundancy in our key infrastructure and distribution systems. 
Most importantly, we must put our efforts toward building 
public-private partnerships which provide the knowledge and 
tools to confront any challenge that we may face.
    I commend you, Mr. Chairman, and all members of this 
committee for seeking ways to improve the national ability to 
recover quickly from a catastrophic event. We at SAP believe 
that resiliency must be at the center of U.S. homeland security 
planning, and we stand ready to participate in any and all 
efforts to achieve this important goal.
    I would be pleased to answer any questions.
    Chairman Thompson. Thank you very much.
    [The prepared statement of Ms. Arnold follows:]
                   Prepared Statement of Mary Arnold
                              May 6, 2008
                              introduction
    Thank you, Mr. Chairman, Congressman King, and members of the 
committee. I am pleased to be here today to speak about the need to 
broaden U.S. homeland security policy to include homeland resilience--
the ability to resume activities after an attack or disaster like 9/11 
or Hurricane Katrina.
    Today, much of the global supply chain's critical components are in 
private hands. Certainly, U.S. industry needs to take a proactive role 
in developing, deploying, and exercising plans that will ensure that a 
disruption in the supply chain will not result in a crippling blow to 
their respective businesses. But, government is a critical partner in 
that process, and for that reason, I want to commend, and thank, the 
committee for recognizing the importance of this issue and dedicating 
the month of May to discussing homeland resilience as a core component 
of U.S. homeland security policy.
    My name is Mary Arnold, and I am Vice President of Government 
Relations for SAP. SAP is the world's leading provider of business 
software solutions for government and private enterprise, and the third 
largest software manufacturer in the world. Because business continuity 
and supply chain management are critical to our customers, we 
understand the need for information technology that provides resiliency 
and redundancy. That is why SAP is the supply chain solution used by a 
diverse range of private and public sector customers, including over 75 
percent of the Forbes ``Global 500'' companies, and public sector 
entities including Clark County, NV, the North Carolina Department of 
Transportation, the New York Port Authority and the Defense Logistics 
Agency, to provide them tailored resilient solutions that are flexible, 
adaptive and responsive. Our understanding is reflected in our over 35-
year company heritage of listening to and working with our customers 
and experts in industries which reflect the entire spectrum of the 
global economy and public service entities.
    Although we cannot predict or prevent every potential disaster, we 
can identify our vulnerabilities in a variety of scenarios and take 
steps to reduce them with the right information technology, redundancy 
solutions, and highly developed continuity-of-operations plans.
    Last month, I attended and led a panel at a forum in New York along 
with 100 other corporate executives entitled: ``Building a Resilient 
Nation: Enhancing Security, Ensuring a Strong Economy.'' In the 
discussions that took place there, it was clear that achieving 
resiliency will require a broad-based and comprehensive solution. 
Today, however, I am going to focus my comments on the role of 
information technology.
                          perspective from sap
First, to state an obvious but crucial fact, there are no one-size-
        fits-all solutions.
    Supply chains link thousands of companies in hundreds of industries 
and dozens of countries. Supply chain solutions must work seamlessly 
across all of these borders.
    There are core elements, such as storage and distribution points, 
transportation modes, and a supplier-customer relationship endemic to 
all supply chains. But, there is also diversity in the U.S. and global 
economy such that what works for one company or industry's supply chain 
may not reflect the requirements of another. Thus, within every 
industry, we have seen the need for flexible, adaptive, and resilient 
solutions. We must ensure that our public policies reflect this 
diversity and we, as government and the private sector, must work 
together to ensure that solutions represent the variety of industries, 
cultures and companies that exist, not only in the United States, but 
throughout the world.
Second, we need to take an ``enterprise'' approach to resiliency, or 
        what we might call a ``resiliency chain'' approach.
    By ``enterprise'' I mean a holistic, all-encompassing perspective. 
For example, in the energy industry, our vision must go beyond rapid 
recovery for a single drilling rig, refinery, or pipeline. We need to 
look at the ENTIRE enterprise from the platform all the way to the gas 
pump. Similarly, in the defense industry, we speak of ``factory to 
foxhole/flight line/frontline to factory'' supply chains. That is, a 
perspective that reflects consideration of all the events, 
infrastructure, and players within that supply, or resiliency, chain.
    A resiliency chain also needs to have real-time intelligence on 
alternatives to pieces of the existing value chain, with the existing 
``value chain'' reflecting all the steps and players in which a product 
is designed, manufactured, marketed, and distributed to customers. For 
example, if pharmaceutical company ``A'' is the sole source of a key 
vaccine, what other pharmaceutical companies have similar manufacturing 
capabilities, and how could they be rapidly re-purposed in the event of 
an emergency?
    Redundancy is one of the core elements of the resiliency chain. For 
example, if crucial raw materials normally move by rail, what are the 
backup plans if our railroads become disabled? If telephone lines go 
down, what are the backup means of communicating?
Third, we need to consider how to incorporate our global trading 
        partners into our resiliency chain planning.
    These partners, too, could be the primary sources of critical 
inputs, such as energy products; and they, too, could be crippled by 
natural or man-made disasters. Again, a broad enterprise perspective 
and global collaboration will be necessary to ensure our ability to 
rebound and move on.
                       public private partnership
    What is the best role for government in resiliency chain planning?
    The government's role in this context is to be the champion and 
facilitator of the resiliency chain, balancing the interests of 
stakeholders, setting broad objectives and strategies, and providing 
oversight. The private sector can provide the means and the execution. 
By working together and leveraging the strengths of each, the public 
and private sectors can accomplish a great deal to improve our national 
resilience.
    Stephen Flynn at the Council on Foreign Relations wrote a 
fascinating article in the March/April 2008 issue of ``Foreign 
Affairs'' in which he stated that sustaining the United States' global 
leadership and economic competitiveness relied, ultimately, on 
bolstering the resilience of its society. He went on to describe a need 
for a sustained commitment to four key factors in order to achieve this 
level of resilience, which I would like to elaborate on for you today.
    First, there is robustness or the ability to keep operating or to 
stay standing the face of danger. In a public/private partnership, we 
can work together and make the investment to ensure that our 
infrastructures, both physically, as well as operationally, are in 
place to deal with the challenges ahead.
    Secondly, we need to focus on resourcefulness, which involves 
skillfully managing a disaster once it unfolds. For example, 
Switzerland has developed and fielded a solution which links its 
country's hospitals, police, fire brigades, executive staff, and the 
armed forces in its 26 cantons (administrative regions). Active since 
2004, the solution underwent its first (and successful) live test in 
support of the World Economic Forum in 2005.
    The third element of resilience is rapid recovery, which is the 
capacity to get things back to normal as quickly as possible after a 
disaster. Small towns and large cities across the United States are 
training their citizens to be auxiliary first responders. This is a 
perfect opportunity for the public and private sectors to commit 
resources and collaborate.
    Finally, resilience means having the ability to absorb new lessons 
that can be drawn from a catastrophe. As we have seen in the wake of 
the September 11 attacks, we have created systems to bolster our 
critical transportation hubs and homeland security. The private sector 
is in a prime position to provide resources and play a role in 
implementing lessons learned.
                         identifying solutions
    The private sector can be a great partner and asset to the 
government in developing solutions to bolster existing resiliency 
chains. Utilizing already developed, ``commercial, off-the-shelf'' 
technology products, that is, products with significant amounts of 
commercially available IT functionality already built in to them, thus 
reducing implementation time, cost, and complexity, we can create 
solutions that meet the needs and address the diversity of today's 
public and private sectors. When you look at IT solutions to support 
resiliency chains, however, keep in mind that you need solutions with 
the following characteristics:
  <bullet> The solutions must take in, manage, analyze, and ``push'' 
        back information to the user based on vast amounts of detailed 
        data;
  <bullet> These solutions also must integrate information across many 
        large, interconnected enterprises, to become literally a global 
        enterprise;
  <bullet> These solutions must be based on global standards and 
        reflect an open architecture which can take in data from legacy 
        systems, as well as the latest technology solutions.
  <bullet> Finally, such solutions must be ``technologically 
        agnostic.'' In other words, they must work with other, open 
        source technologies, such as all types of databases, and cannot 
        be based on one mode of communication, such as a ``hard-wired'' 
        telephone grid, because that mode of communication may fail in 
        a disaster.
                               conclusion
    Thank you, Mr. Chairman and members of the committee. Securing our 
homeland requires the ability to respond to, and recover quickly from, 
a catastrophic event, whether natural or man-made. Thus, strengthening 
the resilience of the Nation must be a critical component of our 
Homeland Security policy.
    The U.S. and global economies depend on a just-in-time supply chain 
that is susceptible to serious disruption that can cripple economic 
activity. Yet today, the private sector also incorporates resiliency 
planning, such as keeping track of alternative supply sources and back-
up transportation modes, to minimize any disruption to their supply 
chains.
    In order to ensure resiliency and recovery, we must develop public-
private partnerships that utilize the resources of both sectors and 
play to their strengths. We must develop and utilize new technologies 
that will ensure that we build greater redundancy in our key 
infrastructure and distribution systems to establish the foundation 
from which to recover after disaster strikes. Most importantly, we must 
put our faith in a public and private partnership which, working 
together, has the knowledge and tools to confront any challenge that we 
may face.
    So again, I commend you, Mr. Chairman, and all members of this 
committee for seeking ways to improve our national ability to recover 
quickly from catastrophic events. We at SAP believe that resiliency 
must be at the center of U.S. homeland security planning and we stand 
ready to participate in any and all efforts to achieve this important 
goal.
    That concludes my prepared remarks, and I would be pleased to 
answer any questions.

    Chairman Thompson. I would like to thank all of the 
witnesses for their testimony.
    I will remind each member that he or she will have 5 
minutes to question the panel. I will now recognize myself for 
questions.
    Mr. Baker, in your opening statement, you talked a little 
bit about how your office promotes resiliency. Can you identify 
a particular department, or component in a department, which 
you think is an example of resilience or one that you would 
consider a successful model?
    Mr. Baker. I would be glad to.
    I think that, in terms of allowing resilience, one effort 
that I would point to, which is a joint effort by the Coast 
Guard and CBP, is preparing for the possibility that our ports 
would be disrupted by an act of terrorism or by a natural 
disaster.
    CBP and the Coast Guard have set up mechanisms by which 
people who are coming to a port can learn what the status of 
the port is and then can report back to CBP and to the Coast 
Guard about what alternate ports they intend to use. This 
allows the trade of a lot of flexibility in deciding where they 
are going to go based on what the market calls for; but because 
they are in constant communication with the Coast Guard and 
CBP, it allows the Coast Guard and the CBP to move their assets 
quickly to new ports of entry to handle the new load that would 
come as a result of the ship.
    Chairman Thompson. Thank you.
    I would ask some things that you think Congress, as a body, 
could do to promote resiliency other than what we are doing 
now.
    Mr. Baker. I think these hearings are a very good start.
    Resilience is something that has to be part of all of the 
disaster planning, of all of the planning for an event; and it 
is something that requires that you ask in the emergency, ``How 
can we help individuals and businesses make good decisions on 
their own?'' There is no one solution to that, but I think 
drawing attention to the importance of resilience does help all 
of our planners address that issue.
    Chairman Thompson. Thank you.
    Dr. Sheffi, your testimony clearly states that a 
resilience-based approach to disruptions, including 
intentional, human-made attacks, is in a company's best 
interest.
    Do you have a guesstimate of where the private sector, as a 
whole, is in preparing for incidents like this?
    Mr. Sheffi. The quick answer is, no. But there is such a 
wide range of preparedness among companies. Even today, there 
are companies--let me mention the good examples rather than the 
not so good.
    There are companies like Intel, for example, that became a 
model of preparedness, drilling, resiliency. They even go--
every month, there is a team from Intel that goes somewhere in 
the world, to some plant, and says, ``Do you know this 
manufacturer of whatyamacallit part?'' They are now out of 
business. They run the whole plant to 48 hours of exercise in 
trying to qualify new supplies, qualify new transportation 
routes. Plant managers' bonuses are based on it. Now, they do a 
lot of other things, but that is, you know, a very good 
example.
    There are companies that say, ``We cast our lot with the 
rest of them.'' So there is such a wide variety in what you 
see.
    I can say that the good news here is that most large 
corporations are taking resilience seriously and are preparing 
and are drilling.
    Chairman Thompson. Well, we heard the AT&T example----
    Mr. Sheffi. Exactly.
    Chairman Thompson [continuing]. Of what they do.
    Is there something you think Congress could do to encourage 
resiliency outside of government, to say, we think it is good 
for you to create a component for resiliency?
    Mr. Sheffi. There are two elements.
    As I say, there is a redundancy element. Redundancy costs a 
lot of money. For example, I have been--it happens to be 
dangerous to be around me because I was in London and in Madrid 
during the attacks. The first thing that happens is, the cell 
phone network goes down. You cannot communicate, and the lines 
outside, in a public phones, the few that are there, are, you 
know, enormous.
    Can there be some mechanism for the public sector to help 
the private sector invest in significant redundant capacity? 
Because this costs money. The part where companies know and 
help themselves is creating flexibility, because if one creates 
flexibility to be able to respond to disruption, by the same 
token, one creates flexibility to respond to the marketplace, 
to demand.
    There is one thing that is clear in all markets today, 
which is that demand is fluctuating more and more. There is 
more and more uncertainty in demand. Companies that can respond 
better to demand, to competitive pressures, to all kinds of 
changes are better off in the marketplace and can increase 
market shares. There have been quite a few examples of 
companies that, during disruptions, actually increase market 
shares because they were better prepared.
    Chairman Thompson. Thank you.
    My time has expired. I yield to the ranking member of the 
full committee, the gentleman from New York, for questions.
    Mr. King. Thank you, Mr. Chairman.
    Secretary Baker, if I could just ask you to look forward a 
bit to next December, what advice would you be giving to the 
incoming administration, no matter which party it is, as to 
what they should be doing, from the Department of Homeland 
Security's perspective, as far as increasing resiliency?
    Mr. Baker. I think the most important thing and the thing 
that is easiest to miss when you are new is the importance of 
planning and exercising for events so that it is not--as Dr. 
Sheffi said, it is not the theory of how you respond, it is a 
response that you have actually practiced.
    As you get older, it gets harder to learn except by doing, 
I find, and going through exercises as a way of ensuring that 
the government actually has a flexible response is probably the 
most important thing that a new administration can do.
    Mr. King. I know the Department has made a concerted effort 
to increase cooperation between Federal, State and local 
governments as far as sharing intelligence, as far as working 
together to head off attacks.
    When it comes to the issue of resilience, how much 
cooperation is there between DHS, the State and local 
governments and the private sector?
    Mr. Baker. I think our cooperation is good through fusion 
centers. We have come to know a lot of the participants in this 
process.
    As you know, the Congress created an Assistant Secretary 
for State and Local Law Enforcement. They have put that office 
in my office. We have appointed Ted Sexton, a former sheriff 
from Alabama, to that job. His first task is to look at the 
question of how do we build resiliency for law enforcement so 
that neighboring jurisdictions can supply law enforcement 
packages to communities in need on a fast basis but on an 
organized basis, so that it is not just individual police 
officers showing up without support.
    That is something that we are working on and expect to have 
a proposal for in the next few months. So that is something 
that, I think, will add greatly to State and local cooperation 
with the Federal Government in providing the fundamental order 
that allows people to go at the business of recovering on their 
own, bouncing back from a disaster.
    Mr. King. I do not want to turn this around on Secretary 
Baker, but do any of the other panelists--can they suggest what 
the Department should be doing that it is not doing or, say, 
what the Department next year should be doing to continue this 
effort?
    Mr. Southers.
    Mr. Southers. Yes, sir.
    On two fronts, first on the Centers of Excellence, I have 
the very unique opportunity--in addition to being Chief of 
Intelligence in Homeland Security, I am also an Associate 
Director of the Center of Excellence at USC.
    One of the things that we have done is, we have leveraged 
their research capabilities, what we are calling 
``translational research,'' research that is going directly 
from the laboratory to the field and to the people who are 
operational.
    You have got 13 Centers of Excellence that, with all due 
respect, probably house the best and brightest people in this 
country who are researching homeland security solutions. I 
think we should, perhaps, leverage those Centers with our 
critical infrastructure sites that need that capability and 
that knowledge to test out possible solutions for resilience, 
should we have a man-enabled or a natural disaster.
    The second item is in the area of intelligence. It might be 
a wise suggestion or move to embed our regional security 
advisors, meaning the protective security advisors, TSA and 
surface transportation advisors, within the local fusion 
centers.
    We have the unique fortune at LAX of having every section 
or every agency of government at our airport, and so our 
relationship and our communication in terms of intelligence is 
pretty seamless. But I think if we were able to embed these 
folks into the fusion center we would then be able to enhance 
our risk-based decision-making with intelligence-led decision-
making, as they are doing in London and in Israel.
    Mr. King. Dr. Sheffi.
    Mr. Sheffi. It is something more specific, maybe because I 
was born in a different country and I spent a lot of time in 
Europe.
    I was struck in the United States by the amount of 
volunteerism after a disaster and by how uncoordinated it is. 
There is a huge outpouring of goodwill and support that is not 
being captured. It happens in every big disaster in the United 
States. You see it, but there is no mechanism to capture it, to 
coordinate it and to use it.
    In addition to this, as far as the private sector is 
concerned, provide some type of regulation, some type of 
incentive for drilling and some type of auditing that verifies 
that companies are drilling and testing and that they are, you 
know, coming up to the standards of AT&T and of other good 
corporate citizens.
    Mr. King. Thank you, Doctor.
    Thank you, Mr. Chairman.
    Chairman Thompson. Thank you very much.
    We now recognize the gentlelady from Texas for 5 minutes, 
Ms. Jackson Lee.
    Ms. Jackson Lee. Mr. Chairman, let me thank you very much, 
and I thank the witnesses as we probe this topic.
    I do not think there is, certainly, a more important 
aftermath than the ability to get back up on your feet. It 
seems to be an American challenge. Certainly, we would like to 
think it is an American value as well.
    Let me just start quickly--and I have a series of rapid-
fire questions, Ms. Arnold, just to ask you directly.
    Do you think the Department of Homeland Security has 
adequately focused on promoting resilience? Do you think the 
word is out that getting back on your feet is just as important 
as being able to counter the attack that may come, but that 
resilience in starting back up is crucial? Do you get a sense 
that there is that kind of focus at the Department of Homeland 
Security?
    Ms. Arnold. I do believe that both Congress and the 
Department are keenly aware that this needs to be addressed, 
and there is an understanding that there needs to be a 
collaboration and a streamline of communications.
    Ms. Jackson Lee. What do you see specifically that gives 
you the sense that that is happening, in that you are giving me 
that response? What is there concretely that suggests that that 
is the case?
    Ms. Arnold. Nothing other than just conversations with 
staff at this point.
    Ms. Jackson Lee. Let me move to Mr. Baker and ask the 
question about resilience and for you to give us some of the 
examples. I guess you stated some of them in your statement, 
but some--again, concrete examples and then results of the 
agency's emphasis on resilience.
    Mr. Baker. Yes. Thank you.
    As I said, we think that in many cases the key to 
resilience is to give people good information and to make sure 
that they have the freedom to act on that information.
    In the business context, where we are thinking about 
resuming operations at a port, we have an established mechanism 
for doing that. The same is true for ports of entry.
    We are all quite aware of the importance of the U.S.-Canada 
border economically and of the smooth flow of traffic across 
that border, even after an event, on the question of how will 
we resume traffic if there has been any interruption. Again, we 
have protocols designed to make sure that information gets to 
people who are coming across the border so they can plan, so 
they can adjust on their own to changes as a result of a 
natural disaster or an act of terrorism.
    Ms. Jackson Lee. Let me just ask if you could submit in 
writing maybe some concrete broader responses to resilience 
that relates to a broader sector. I will just leave that on the 
record----
    Mr. Baker. I will be glad to do that.
    Ms. Jackson Lee [continuing]. And ask that you have that in 
writing.
    Let me ask Dr. Sheffi, and I know his name has been 
pronounced in many different ways, but let me welcome you----
    Mr. Sheffi. Sheffi is fine.
    Ms. Jackson Lee [continuing]. And ask quickly if you look 
to New Orleans and you look particularly to the healthcare 
sector, there is no effectively running hospital. The public 
hospital is not open. What is your response to DHS's focus on 
resilience, and do you think that is a good showing of 
resilience when a city now 3 years late does not have a 
functioning public health sector?
    Mr. Sheffi. Tough question. I can only say that I was in 
Europe during New Orleans, and I thought it was al Qaeda 
propaganda, the thing they were showing on TV. So the magnitude 
of the failure was breathtaking, still going on. I actually 
don't think that the department of government in large part has 
been focusing on resilience. In large, it is totally 
understandable. Most defense forces, most governments think in 
terms of prevention, preventing an attack. That is what the 
public wants, the government to prevent it. It is actually, as 
the chairman said before, it is talking truth to the 
population, saying, look, we will not be able to prevent it 100 
percent. That is not a stance that many executives like to 
take, because in some sense even talking about resiliency is 
admitting that failure is an option. It is much, much better--
--
    Ms. Jackson Lee. So you think we have cracks in the armor? 
When we don't have a functioning hospital system that means we 
have a weak response in resilience?
    Mr. Sheffi. Of course.
    Ms. Jackson Lee. My time is short. So Mr. Southers, let me 
quickly ask you your experience regarding resilience in other 
countries where there have been terrorist acts. Do you have any 
sense of that that could be helpful to us?
    Mr. Southers. Yes, particularly in Israel they have a 
natural resilience. Everyone there is a first responder. Should 
there be an incident, everyone understands what to do. Their 
most important function in that country is a psychological 
impact that is going to be minimized by getting operations back 
in order. Same with London and the bombings that they had 
there. Getting things back in order is very important. So one 
of the things that we are trying to do here, as we respond to 
threats, we understand that threats can actually cripple the 
aviation domain. We are trying to be more intelligence-driven 
so that we can minimize the disruption and minimize the 
economic consequences of an attack or the threat of an attack 
to our aviation system. So those two countries in particular 
are certainly models of resilience as it relates to man-enabled 
disasters.
    Ms. Jackson Lee. I think we can look to those for guidance. 
I think there needs to be a resilience policy defined at the 
Department of Homeland Security. I yield back to the chairman. 
Thank you.
    Chairman Thompson. Thank you, Ms. Jackson Lee. I now yield 
5 minutes to the ranking member, Mrs. Miller.
    Mrs. Miller. Thank you, Mr. Chairman. I like the sound of 
that very well. Thank you. I might pick up, Mr. Baker, with a 
comment you just made when you were responding to my colleague 
about the smooth flow of commerce between the United States and 
Canadian border, because I come from Michigan, of course, a 
border State. In my immediate vicinity, we have the Ambassador 
Bridge, which is the busiest commercial artery in the northern 
tier of the Nation, with a tunnel to Windsor underneath the 
Detroit River.
    In my immediate district we have the Blue Water Bridge, 
which is the second busiest commercial artery on the northern 
tier, and is the only one where you can transit hazardous 
material, as well as the CN rail tunnel that runs under St. 
Clair River, which is the busiest rail entry into our Nation. 
Immediately across the St. Clair River, if you are a good 
golfer you could hit with a golf ball--I couldn't, but somebody 
who is a good golfer could hit the largest concentration of 
petrochemical plants I think outside of New Jersey in our 
Nation as well.
    So we have a number of unique dynamics there. My question 
is going to go to how the Department actually works with the 
local communities, with the local counties, the States in 
particular on their response mechanisms and their planning 
process. It is my understanding that each of their respective 
States are responsible for constructing their own plan in 
regards to identifying soft targets, available resources that 
they may have, et cetera. I am just wondering how does the 
Department work with the various States in critiquing those 
plans? Do you do periodic updates? What can Congress do to 
assist the Department and the States?
    Mr. Baker. We do work closely with the States on their 
plans. We review them, we talk to them about them. We have to 
recognize that in an emergency, the State is the first 
responder. The local government is the first responder. 
Governors are quite jealous of their own authority to respond, 
and have a great confidence in their ability to respond. So we 
have to defer to their initial decisions about how to handle 
particular emergencies. But we have also learned the importance 
of having a very good plan that has been properly reviewed and 
exercised. We work closely with the States to encourage them to 
do that. We provide funding that assists them in preparing 
those plans. Then through fusion centers and the Homeland 
Security advisers, we provide a great deal of intelligence 
about the nature of the threat that they ought to be responding 
to and preparing for.
    Mrs. Miller. I just raise that question because I mentioned 
to you about the Blue Water Bridge. Several years ago, I 
personally went and looked at the viaducts, the underbody of 
the bridge on the Canadian side, where they had concrete 
embankments around all the viaducts. It appeared to me from a 
layman's term that they were fully prepared. Yet on the 
American side, on the Michigan side there was nothing. I 
personally called the Department of Transportation and said for 
goodness sake, get some concrete embankments around here. You 
could imagine if someone blows up one of these viaducts what it 
would do to the economics of the Nation, because both the 
genesis of I-69 and I-94 are at the foot of that bridge as 
well, obviously huge trade routes.
    So I just wonder how the committee worked with that. If I 
could, because I am running out of time here, I was very 
interested in your reference about the reverse 911. Could you 
sort of flesh that out for me a bit? Is this something that is 
just working in California? I wasn't familiar with that. Is it 
happening around the Nation?
    Mr. Baker. It is technology that was developed privately by 
a company that is now being rolled out in a variety of places. 
I think the company is from Indiana. It is a very valuable 
opportunity to communicate with citizens. But it is really just 
the beginning. All of us now carry cell phones that are capable 
of receiving messages that are targeted to at least broadly the 
location, because the cell tower we are all in communication 
with is a local spot that can be identified. It is true that 
cell phones stop working in emergencies, but text messages are 
much more likely to get through. Developing mechanisms and 
standards for communicating to people in an emergency what we 
know using text messages and perhaps getting text messages back 
is something that we are exploring quite actively right now.
    Mrs. Miller. Thank you very much. I guess I have 20 seconds 
left, so I will make one comment to Dr. Sheffi as well. I 
appreciate your comment about all the volunteerism that America 
has and throughout generations it has always been part of our 
strength. But I would say that I think the American Red Cross 
is a mechanism that we have put in place. Obviously, in the 
largest room there is always room for improvement. But the 
American Red Cross does a remarkable job in times of need to 
try to harness some of the volunteerism and shift those 
resources where they are necessary as well. I just want to make 
that comment as well. Thank you, Mr. Chairman.
    Chairman Thompson. Thank you. I will now recognize the 
gentleman from Pennsylvania for 5 minutes, Mr. Carney.
    Mr. Carney. Thank you, Mr. Chairman. Professor Sheffi, 
testimony from AT&T asserts that the metric for being resilient 
is resumption of activities within 72 hours. Does that metric 
make sense to you?
    Mr. Sheffi. Can we go to the next--no. Seventy-two hours 
may be obviously too long. One has to leave within 1 minute. 
AT&T understands their own technology better than anybody. The 
question is really what would it take? You want to get back 
within, you know, 72 seconds. The question is, is it 
technologically feasible? It is actually easy. Some of it is 
technologically feasible. The question is the price and who 
will pay for it. So when one said is 72 hours enough? No, it is 
never enough. One can always do better. But every company has 
to balance, you know, risks, shareholders, customers. AT&T, 
like any other company, I am sure does this type of balance. 
The role of the government, coming back to one of the questions 
before, is the government can actually tilt the balance. The 
government, through various actions, regulations, taxations can 
move AT&T and corporate companies like it to change their 
calculations about where the balance should be.
    Mr. Carney. Ms. Arnold?
    Ms. Arnold. Yes.
    Mr. Carney. I am over here. How do you quantify whether SAP 
is resilient? What metrics do you have?
    Ms. Arnold. What I can tell you how we look at our software 
solutions are very holistic, enterprise-wide from the tree top 
level down to the most granular down to a bin in your 
warehouse. Most of the software is provided with automatic 
alerts. So rather than waiting for a full-blown issue to arise, 
what we find with our software is that in many cases you are 
alerted to a small glitch before it becomes a major problem. 
Then as it escalates, if it shouldn't be solved at that level, 
then everybody from the plant manager all the way up to the CEO 
can be notified.
    One of the things that SAP does in our software is go 
through various scenarios. What if this? What if that? What are 
other suppliers if this supplier goes down? You can actually 
have visually go onto your plant floor and if you have an 
engine that is overheated in a critical part of your 
manufacturing plant, you can then switch that engine off and 
then go to another. So I guess what we would argue that we 
provide is real-time data to our customers as possible so that 
they can react quickly and collaboratively and with all of 
their partners.
    Mr. Carney. Is that resilience or is that just standard 
operating procedure? I mean, resilience seems to me being able 
to bounce back after something happens.
    Ms. Arnold. Sure.
    Mr. Carney. What is the metric for that that SAP has?
    Ms. Arnold. We would say from a resilient standpoint again 
is having redundancy. Again, when you have--we break out the 
whole solution so that when a company is making their planning 
processes, if supply A goes away, then generally they will have 
the ability to have identified supplies B, C, and D, and not 
miss a beat if supply A goes down.
    Mr. Carney. Okay. Thank you. One more question. From your 
point of view, do you think that DHS is adequately focused on 
promoting resilience?
    Ms. Arnold. I think that the Department of Homeland 
Security is extremely sensitive to what is going on, and is 
certainly addressing, making every attempt to address those 
needs at this point. I think that the dialog is just beginning 
and will continue to do so.
    Mr. Carney. So that is a yes or a maybe or----
    Ms. Arnold. I think everybody involved is trying to do the 
best they can would be my answer.
    Mr. Carney. Okay. Mr. Southers, just a quick one, can you 
provide us your assessment of the quality and timeliness of the 
intelligence, the information you receive from TSA and DHS, 
intelligence community, et cetera?
    Mr. Southers. The timeliness that we have at LAX is quite 
extraordinary. We have officers that are in the fusion centers 
on both the Joint Terrorism Task Force and the Joint Regional 
Intelligence Center. They certainly could be enhanced, as I 
mentioned earlier, if some of the DHS assets were embedded in 
those centers as well, and also if some of our officers were 
given additional opportunities to staff those centers. But it 
has been seamless as a great result due to the Joint Terrorism 
Task Force and the fact that we are actually sitting in the 
same room sharing the information.
    Mr. Carney. Thank you. No further questions, Mr. Chairman.
    Chairman Thompson. Thank you. We now recognize the 
gentleman from New Jersey, Mr. Pascrell.
    Mr. Pascrell. Thank you, Mr. Chairman. Dr. Bailey, AT&T, do 
you have the State and local and Federal Governments 
participating in your exercises?
    Ms. Bailey. Sometimes we do. You are referring, I believe, 
to our network disaster recovery exercises.
    Mr. Pascrell. That is exactly what I am referring to.
    Ms. Bailey. Frequently we do. In fact, we had in an 
exercise that we held in the Washington, DC metropolitan area 
about a year or two ago, we had participation from the 
Department of Homeland Security specifically to trial some 
credentialing technologies and capabilities.
    Mr. Pascrell. Do you share information with the Department 
of Homeland Security?
    Ms. Bailey. Yes. Absolutely. We share--in fact, we hosted a 
commission from DHS just last week up to our global network 
operations center. I personally participated in that meeting 
with Secretary Jameson to share our approach, our challenges, 
and leverage DHS. I also do want to comment on the very good 
support we get from DHS as it relates to the sector 
coordinating council for telecommunications.
    DHS operates something we call the NCC NCS, national 
coordinating center for telecommunications. It is identified as 
the telecommunications coordinating council participating--you 
know, participants include all the major carriers as well as 
DHS officials. It has been in existence for many, many decades. 
It has served to be extremely helpful in preparing us and 
enabling us to coordinate to be prepared, as well as to 
coordinate after an event, to share information, to get 
information about, for example, in Katrina where exactly is the 
water so that we cold see what pieces of our infrastructure 
might be vulnerable. DHS has recommended expanding the notion 
of those sector coordinating councils across all the major 
critical infrastructures. I highly support that kind of an 
approach. It has been very helpful.
    Mr. Pascrell. Secretary Baker, I believe since the attacks 
of September 11, 2001, we have all said that it will take a 
truly multi-faceted approach to keep our Nation safe in the 
face of numerous threats. That, I assume, is, hopefully, and 
the committee believes this, a bottom-up approach that involves 
the community, regional planning, excuse my back, I am over 
here, and trained volunteers, talking about the doctor 
mentioned volunteers. There are two issues I would like to talk 
to you about. There is a story in the paper today, USA Today, 
let me read you the headline, ``Hospitals Can't Handle 
Attack''. Very interesting review. This is one aspect of it, 
but I think it is very, very, very reflective. They can't even 
withstand an attack from a modest--a modest terrorist attack. 
In fact, of the numerous cities that were involved, the seven 
major U.S. cities, Washington, Minneapolis, Los Angeles, 
Chicago, Denver, Houston, New York, they have a total of about 
100 beds were vacant on the day they chose to do this test, 
March 25 at 4:30 in the afternoon. This is a disaster. It is 
not acceptable. We knew about it 6 years ago. There is no 
resiliency here whatsoever.
    These are hospitals that were very interested in serving. 
But what is more interesting is that this administration wants 
to cut Medicaid dollars, which in the words of Irwin Redlener, 
who is director of the National Center For Disaster 
Preparedness at Columbia University in New York, would even 
make matters even worse. We have a, he says, a really serious 
catastrophic acute event, a nuclear detonation or widespread 
chemical attack, we have thousands of victims simultaneously, 
there is no urban area that is prepared for large scale 
disasters. Why under those circumstances, Mr. Baker, would the 
administration be recommending cuts in Medicaid, which will 
only make this situation worse and exacerbate it?
    Mr. Baker. Well, as DHS's policy director, I have got a lot 
of responsibilities. Medicare isn't one of them. But I do want 
to answer your question.
    Mr. Pascrell. We are all working together here, aren't we?
    Mr. Baker. We are.
    Mr. Pascrell. Is this the Homeland Security Department that 
is looking at its own responsibilities over here and the 
administration is talking about an umbrella or comprehensive--
and certainly it impacts you.
    Mr. Baker. It absolutely does. We are committed to planning 
for a disaster, including a nuclear detonation.
    Mr. Pascrell. How are we doing in hospitals?
    Mr. Baker. We certainly, as you heard Dr. Sheffi say, 
building redundant hospitals that will sit there waiting for a 
nuclear explosion is not an answer to our needs. We will have 
to respond by using every available facility, including prisons 
and schools as hospitals----
    Mr. Pascrell. Are there such plans to do that----
    Mr. Baker. There are plans to do that.
    Mr. Pascrell [continuing]. Secretary Baker? There are no 
such plans, Mr. Baker. Mr. Baker, let me tell you something 
very important. Forget about attacks from the outside, you 
know, from some foreign nut case, let's talk about what is 
happening in the United States if we had huge disease spread 
out over the United States of America or in any particular 
section. Our hospitals are not ready to take care of that. 
Where is the resiliency there?
    Mr. Baker. I asked our director of health affairs about 
that. I said does the fact that the emergency room is full mean 
that you don't have an ability to respond to a disaster? He 
said not necessarily. I had a plane crash when I was running a 
county emergency system, and I called up the hospitals, and I 
said we have a plane crash, we need--immediately, we need beds. 
What they did is they stopped all the elective surgery for the 
next 3 days and they immediately freed up beds. Now they can't 
do that every day.
    Mr. Pascrell. Do you know how many beds were available at 
that particular time in March in Washington, DC, where we are 
sitting? Do you know how many beds were available?
    Mr. Baker. I don't know the number.
    Mr. Pascrell. Zero, nada, nothing.
    Mr. Baker. I will also bet you that there were people in 
beds----
    Mr. Pascrell. That we could put out of beds, throw them out 
of bed.
    Mr. Baker [continuing]. Did not have to have surgery.
    Mr. Pascrell. How many people you think we could do that 
to? You have any idea how many people we could do that to?
    Mr. Baker. My understanding is there were a large number of 
beds were freed up by that.
    Mr. Pascrell. The resiliency, Mr. Chairman, is a beautiful 
word, multiple syllables, sounds good, very important. Very 
significant. I like the word. I like the etymology of the word, 
too. I won't go into that now. You talked about redundancy and 
flexibility. Hospital systems do not have that. The hospital 
systems don't have the luxury. If they don't get help--not only 
are they not going to get help, we are going to cut Medicaid. 
We are going to make it worse. Thank you, Mr. Chairman.
    Chairman Thompson. Thank you. The gentleman from New Jersey 
makes his point, as he always does. The gentleman from North 
Carolina, Mr. Etheridge, for 5 minutes.
    Mr. Etheridge. Thank you, Mr. Chairman. Let me sort of 
change the conversation to a little different area, but it 
deals with the same problem. Because I am always interested in 
how homeland security can address the safety and security of 
schools and school children, because they are part of this 
country. A critical part we tend to forget in New York, the 
schools were disrupted and children were for a long period of 
time. We didn't hear a lot about that, but it was. 
Specifically, whether it be a natural or manmade, it is still a 
problem. Because it is important to get communities back 
flowing and working. If you have children, parents understand 
that very quickly. For communities it is a critical piece 
because it is part of the resiliency.
    If you look at what has happened in New Orleans, schools 
still aren't operating, children aren't in school in some 
places. If you go to Houston, they are overcrowded. They still 
have the problems. So my question is this, Mr. Baker. How is 
DHS looking at resiliency as it pertains to school and the need 
for communities to provide essential services after a disaster? 
But also to prepare for it before it happens?
    Mr. Baker. We strongly recommend and support, including 
with funding through UASI and other programs, planning for a 
disaster that will affect a particular city. So that the cities 
who are having the responsibility typically for education 
will----
    Mr. Etheridge. No, sir, it is not the cities.
    Mr. Baker. The local governments that have the 
responsibility for the schooling of our children----
    Mr. Etheridge. But the Federal Government has the 
responsibility for the overall broad planning.
    Mr. Baker. We do have responsibility for making sure that 
there are plans. It is important, as I said when I was making 
my earlier statement, that we recognize that if resiliency 
depends on some central government making all the decisions, we 
will always have a brittle system and not a resilient system. 
We have to allow local decision-making, the creativity to 
respond to local conditions. That includes the creativity to 
come up with particular solutions that reflect the educational 
institutions that are in the area.
    So we encourage local planning for local disasters, and 
then we will back the schools up and we will back the 
communities up with Stafford Act funding and responses in the 
event of an emergency. We can help them with the planning. We 
can't do and shouldn't do the planning for them.
    Mr. Etheridge. Thank you. You are aware there is Federal 
legislation that requires Homeland Security to provide a 
template for schools to look at. I assume you are aware of 
that.
    Mr. Baker. Yes.
    Mr. Etheridge. They would also include in the legislation 
to make it available for the planning that has been introduced 
this year, I hope you take a look at it, to provide for some 
resources. It is one thing to do the planning, but if you don't 
have the resources the plan doesn't work too well. So I hope 
you look at that. Mr. Sheffi and Ms. Arnold, how can we help 
schools reduce vulnerabilities and improve the resiliency that 
we are talking about? What analysis is necessary to determine, 
I guess to determine where vulnerabilities can be reduced or 
mitigated? How can we work to develop plans for schools to 
bounce back after we have these disasters? You talk about how 
important it is. So what are some of the things we can do or 
should be doing?
    Ms. Arnold. Congressman, I think one of the things that I 
would suggest is that you look to the country of Switzerland. 
Switzerland about 3 years ago built a centralized system to 
coordinate medical response to large scale crises. During that 
program, what that they pulled together was their fire 
brigades, their medical teams, their first responders, their 
emergency control centers, and they centralized it into one 
Web-based scheme. They found, they did a medical analogy, that 
most people suffer the gravest injuries within the first 60 
minutes of being injured. So their main mission was to get 
people treated before 60 minutes was up.
    When they first started out, they literally had to make, as 
somebody said earlier, phone calls to say do you have a bed in 
your district because I have got a burn victim or I have a car 
fatality, blah, blah, blah. Once this became automated with the 
supply chain management system you had an end-to-end visual of 
where your hospital centers were, where your fire brigades 
were, and you could deploy them in the most fast and effective 
means. You could determine, based on the casualty, which 
hospital was best suited to take the injured individual. Also 
the first responders were able to look at what we call the 
standardized best practice. So, you know, if this then do that. 
So we kind of brought everybody into the mode. Then on top of 
it they were able to manage their beds. I thought about that 
example as I read that article this morning about our beds 
being in such short supply.
    So I really think what needs to happen is a centralization, 
a standardization of data going into that central repository 
that needs to be easy to use so that all levels can tap into 
it, and it can be Web-based, and that there need to be, you 
know, some standard practices. And that you have a full and 
real-time scenario of where your assets are and how you can 
best deploy them. Whether it is a school system or, God forbid, 
a flight go down, you can see how this is very scalable. In 
fact, it went live in 2005, and they did a demonstration at the 
World Economic Forum in 2005. So there are examples. I will 
grant Switzerland is a very small country, they only have 26 as 
they call it cantons or administrative regions, but I do 
believe there are some lessons to be learned, and ones that we 
can import back to this country.
    Mr. Etheridge. Thank you.
    Chairman Thompson. Thank you very much, Ms. Arnold, and a 
staff member will talk to you a little bit after the hearing 
about some information on that subject.
    Ms. Arnold. Sure.
    Chairman Thompson. We will now recognize the gentlelady 
from the Virgin Islands, Mrs. Christensen.
    Mrs. Christensen. Thank you, Mr. Chairman, and thank you 
for this hearing, because resiliency is, I think, where we need 
to be focusing. We know that you can't protect us 100 percent, 
prevent 100 in bioterrorism. We know we have no clue what the 
bug might be or how it might be altered. Both from real-life 
experiences and from some of the exercises that we have held, 
we know that our weakness has been in recovery. And that is 
resilience. We have seen the Department move away from things 
like something that I know from my district Project Impact, 
where we set up public-private partnerships ahead of time to 
mitigate and to, you know, strengthen the ability to be 
resilient in communities.
    So that is--I am glad we are having this hearing. I want to 
go back, as you can imagine, to the hospital issue. In most of 
those situations, not only are there no beds, but there are 
people in the emergency room waiting for beds. So, you know, it 
is not really that easy to move people around. But every time 
we look at the Department's budget, the budget for health and 
the part of the budget set aside for health and hospitals does 
not reflect the importance of helping our hospitals to become 
resilient. Are you seeing any change in that as we get ready 
for next year?
    Mr. Baker. I will be glad to address that. I think that we 
have reflected in the last few years the importance of the 
health issue and the resources that are brought to bear in the 
event of a bioevent of some sort, including a natural 
infection. We created an Office of Health Affairs. The budget 
for that has increased significantly, and it has been given new 
authorities in the last few years.
    Mrs. Christensen. We appreciate that. But it doesn't help 
us out in the different cities.
    Mr. Baker. Yes.
    Mrs. Christensen. I remember going to Oakland Highland 
Hospital, a level one trauma center, and yes, I asked them--
this is a couple of years ago. They got maybe a couple hundred 
thousand dollars. It doesn't go very far.
    Mr. Baker. As far as that goes, we don't have the ability 
to say we should have twice as many hospitals, we will fund 
them and have them on the shelf waiting for an event. We have 
to encourage local governments and States to plan with the 
resources they have and to come up with a mechanism for dealing 
with emergencies. I would just say while I don't pretend to be 
an expert, I think HHS knows much more about this than I do, 
about the ins and outs of particular hospital availability in 
the event of a crisis, the fact is that every hospital, even if 
they have a crowded emergency room, has elective surgery 
candidates who are showing up every day. I know I have had 
shoulder surgery probably 5 years ago, and if somebody called 
me up and said we have had a plane go down and we have given 
your bed to somebody who was burned in that accident, I would 
have understood and waited another 6 months for shoulder 
surgery. So we do have some capability to respond to an 
emergency.
    Mrs. Christensen. Well, I hope that, Mr. Chairman, that we 
could have a hearing just devoted to this issue. Are you 
familiar with the system or that room that Secretary Tommy 
Thompson had set up where we are supposed to be able to know 
hospital bed capacity in every hospital in every State, city, 
and be able to utilize that in a disaster emergency?
    Mr. Baker. I have seen the----
    Mrs. Christensen. Is it operational?
    Mr. Baker. I have seen the Health and Human Services 
intelligence center, which is operational. If that is what you 
are talking about, I have been to it. It is in operation. I 
don't know whether it has all of the information that you 
talked about.
    Mrs. Christensen. Thank you, Mr. Chairman.
    Chairman Thompson. Thank you very much. We now recognize 
the gentleman from Washington State, Mr. Dicks, for 5 minutes.
    Mr. Dicks. Well, after listening to this discussion about 
the hospitals, Secretary Baker, you get into the question about 
anthrax, and a possible--that kind of an aerosolized anthrax 
attack. Your point is well made that what we really need is to 
have the individuals have this medicine to be able to take. How 
many people have this? Nobody has this, right? I mean this is a 
theory, or this is what we would like to have. But people--do 
people actually have these drugs or can they get them? I mean 
can Members of Congress, you know, go to wherever we go and get 
a handful of these things?
    Mr. Baker. I wouldn't recommend getting a handful.
    Mr. Dicks. Well, whatever the appropriate dose is.
    Mr. Baker. I don't want to go into too far into territory 
that is really the responsibility of Health and Human----
    Mr. Dicks. It is in your stable.
    Mr. Baker. Yes, and our job is to be prepared for an attack 
and to think about----
    Mr. Dicks. We are not prepared for it.
    Mr. Baker. We have a rather detailed plan for delivering 
countermeasures, including cipro and doxycycline to the area 
where an attack has occurred.
    Mr. Dicks. But as you say, if you don't get them within a 
matter of hours, it doesn't make any difference.
    Mr. Baker. This is----
    Mr. Dicks. So in those cases, I would go back and argue 
that maybe prevention and deterrence, whatever way to stop this 
from happening in the first place, is just as important as 
resilience if resilience is not possible. I mean, maybe in the 
telecommunications area you can restore something in 72 hours. 
In this area, unless you give the people the pills within a 
matter of hours, they are going to die.
    Mr. Baker. I could not agree more. I share that concern.
    Mr. Dicks. So prevention is a lot better option to me than 
something--I mean, you can call it resilience, whatever you 
want to call it, but it is not going to work and people are 
going to die.
    Mr. Baker. The faster we can get these countermeasures in 
people's hands after an attack the better. While we do have a 
plan for delivering them, having them actually on hand in the 
home, in the office is a very prudent step for people to take. 
I want to be cautious about that, because having antibiotics on 
hand and taking them for something other than a serious event 
could build resistance to antibiotics, which of course is a 
major concern of the public health community. They have been 
very cautious about recommending that people keep these stores 
in their home. We are working with them now to see if there 
isn't an appropriate solution to that problem because of the 
importance of responding very quickly to an aerosolized anthrax 
attack.
    Mr. Dicks. How many years do you think it will take to get 
an answer?
    Mr. Baker. I am hoping for an answer in months rather than 
years.
    Mr. Dicks. Does anybody else out there want to comment on 
this what I consider to be a dilemma? I mean, if you can't--I 
mean, to me it seems as if prevention in this area is critical. 
Maybe some areas, you know, telecommunications, yes, you can 
restore that and it is not the end of the world. But in some 
areas, you know, if you don't prevent the accident, a lot of 
people are going to die. Just as the gentleman from New Jersey 
points out, we don't have--I happen to be one of those people, 
by the way, I was having an operation when I was 24 years old. 
I was actually on the operating table and there was an 
earthquake in Seattle. The dust fell, and the paint fell, and 
they took me out and they opened up the facility in case there 
were emergency victims. So that does--that can work. But that 
would be such a small number of beds. If you had a catastrophic 
attack on Washington, DC, I am not sure that policy is going to 
get you very far.
    Mr. Baker. Absolutely. We would have to turn to a whole 
host of other alternative institutions.
    Mr. Dicks. Well, Mr. Chairman, resilience may be the word 
for the day, but I am for prevention. I think prevention still 
should be up there at the top of the list. Thank you.
    Chairman Thompson. Thank you very much. I now recognize the 
gentleman from California for 5 minutes, Mr. Lungren.
    Mr. Lungren. Thank you very much, Mr. Chairman. I 
appreciate this hearing. Though I have not been here, I have 
gone through the testimony of the witnesses. So let me ask 
somewhat of a general question. That is this. With certain 
elements of our private infrastructure, the immediacy of 
getting their function back up is part and parcel of what they 
do. Financial institutions, if they were disrupted for more 
than 24, 48, 72 hours, it really affects them. So it seems to 
me that building in resiliency to make sure that doesn't happen 
can be justified as part of the bottom line. Similar with 
telecommunications companies. But there are a whole other set 
of infrastructure in the United States where the immediacy 
perhaps is not such that it would be readily apparent and 
accepted in the bottom line. So what do we do as a government 
to work with the private sector, or what incentives do we need 
or what regulatory mechanisms do we need such that resiliency 
as understood in today's discussions would make sense from a 
corporate decision-making standpoint to go to the bottom line? 
I hope I am clear on that question. But it is one that has 
intrigued me for some time. On the one hand, we understand that 
85 percent or whatever the number is, 85, 87, 90 percent of 
critical infrastructure is actually owned by the private 
sector. But sometimes the kinds of things that we need to do to 
protect against terrorist attack or to respond to a terrorist 
attack or other kind of abnormality which would cause 
disruption is difficult to calculate in the bottom line, and I 
presume for corporate leaders to be able to justify to their 
stockholders. Therefore, it seems to me there must be a role 
the government should play, but I am not sure exactly what that 
should be. I wonder if the panelists might have a comment on 
that.
    Mr. Sheffi. I will try to answer. First of all, I am not 
sure that there are such assets. In today's, we have gone 
through 20, 25 years of making corporations very lean and very, 
you know, using low inventories, using just in time, which 
means that assets are utilized extensively, which means that 
whatever the company is doing, whatever the enterprise is doing 
is geared toward, you know, adding value and adding to the 
bottom line. So it is not clear that there are examples where 
assets are just standing there, yet they are important for 
national resilience and companies wouldn't care about it.
    It is not clear that this is a big concern. Because whether 
it is, you know, AT&T Communications or, you know, a 
manufacturing plant or a warehouse or distribution center or 
store, if Wal-Mart loses a store, they would lose revenue. So 
it is not clear that there are many assets in the private 
sectors that are not tied directly to the value stream of that 
company.
    Mr. Lungren. So in other words, you don't think there is 
anything the government needs to do to raise the visibility of 
that issue to corporate America in the area of infrastructure?
    Mr. Sheffi. No. We talked before about an example that AT&T 
raised, that they have 72 hours to come back to the same level 
of service. My comment was why 72 hours? Why not 71? Why not 
75? Is 72 hours a good number? But the issue is with the 
current incentives that the government provides through 
taxation and regulation they chose 72 hours as a combination of 
what they can do with the current technology, what customers 
expect, what they think are their corporate social 
responsibilities. However, if the government would make a 
statement that, you know, 41 hours, you know, is the right 
number, and have some both regulations and incentive to do it, 
they would change the calculations of AT&T or other companies. 
If the government thinks that getting supply of, I don't know, 
Campbell's Soup is important, so Procter & Gamble would change 
its calculation in how it thinks about resilience. So the 
government certainly has a role. The government has to decide 
what is important and how important is it. Do we want it back 
in so many hours, in so many days? What kind of disruption? Let 
me stop there.
    Mr. Baker. I think you have put your finger on a very good 
point. It is very hard, though, for the government to have an 
overarching standard for exactly how resilient a particular 
industry ought to be, because that will change as people's 
perception of the risk changes. The financial institutions that 
today have warm backup centers that are ready to take over all 
their transactions in an instant did not have that on September 
11. It was only the realization of how at risk they were that 
led them to adopt much more extensive redundant systems.
    On the other hand, the market punishes failure to prepare 
for this and rewards a company that prepares. Wal-Mart did an 
excellent job of responding to Katrina using their very 
extensive IT system so that they had people and stores and 
delivery trucks ready to reopen almost immediately after the 
hurricane passed through, and as a result, made a lot more 
money than their competitors who were slower off the mark.
    Mr. Lungren. So at least one of the things the government 
ought to do is be as transparent as possible given the fact we 
that don't want to give away intelligence secrets, but to 
inform those who have critical infrastructure as well as the 
general public that the nature of threats, the extent of the 
nature of that threat, and so forth.
    Mr. Baker. I think that is exactly right. We can point out 
threats that the private sector may not be aware of, problems 
that we see. We have recently addressed the question of what 
would happen in the event of avian flu, a pandemic in which 
everybody should stay at home and work from home. That is fine. 
That is a great new technology that we can use to avoid people 
coming into contact with each other unnecessarily. But right 
now the telecommunications infrastructure does not fully 
support that. We need to address that.
    Mr. Lungren. Thank you.
    Chairman Thompson. Thank you. The gentleman's time has 
expired. We now recognize the gentleman from Texas, Mr. Green, 
for 5 minutes.
    Mr. Green. Thank you, Mr. Chairman. I thank the witnesses 
for the testimony that we have heard. Ms. Arnold, if I may, do 
you have a person within your operation who is charged with 
resilience implementation?
    Ms. Arnold. We actually have a number of--not one specific 
person who is charged with resiliency, but we divide up the 
industries into 26 sectors and then we work----
    Mr. Green. If I may do a quick follow-up. I asked about a 
specific individual because if some branch of government wanted 
to contact your company, would that person then call 26 
different people or is there a person that would be called?
    Ms. Arnold. If it was public sector, yes, there would be a 
public sector person that you would call.
    Mr. Green. So you do have a person that is available for 
the Federal Government to contact?
    Ms. Arnold. Correct. If they want to talk about public 
sector solutions.
    Mr. Green. Does that person have someone at the Federal 
level that he or she can immediately contact, a name and means 
of contact, communication with someone at the Federal level 
that is already known to you?
    Ms. Arnold. I am not sure I understand the question.
    Mr. Green. Well, what I am getting at is if you needed 
help----
    Ms. Arnold. Yes, sir.
    Mr. Green [continuing]. And you wanted to get over to 
someone at the Department of Homeland Security, do you now know 
the name of the person or the organization that you would 
immediately call? Is that already in place?
    Ms. Arnold. We work extensively with Customs and Border 
Patrol, yes, sir.
    Mr. Green. I will take it from this answer that you are not 
giving me a yes or a no. I am not trying to press you too hard. 
But is there a person that you--some person that you are to 
call, some agency that your person already is aware of that he 
or she contacts?
    Ms. Arnold. Generally, our folks with the chief technology 
and chief operating officers for the departments and agencies.
    Mr. Green. Is there a codified plan in place such that in 
the event of some unforeseen ugly circumstance your person 
knows that he or she is to call this person with the 
government?
    Ms. Arnold. In the case, for instance, of Customs and 
Border Patrol, yes. There are several folks that know to--they 
work in concert. We work on a daily basis.
    Mr. Green. I am asking this line of questions because it 
seems to me that the web of resilience should be woven such 
that there is some sort of interconnectivity between public and 
private and the government. There ought to be some web that 
causes each business to have a means by which it can 
communicate up the line to some other person. Is that web in 
place?
    Ms. Arnold. That web is in place. Actually, we have 
services folks that are dedicated to a department and work hand 
in glove with them if they have an SAP solution and running 
that. If there is, in fact, some sort of catastrophic event, 
can certainly assist them in the deployment and addressing any 
kind of concerns.
    Mr. Green. Let me speak on behalf of probably a good 
portion of the American population when I say to you it is 
perceived that when the local government fails and the State 
government fails, it is perceived that the Federal Government 
should prevail. It is also perceived that in Louisiana, in New 
Orleans when the local and State did not step up to the plate, 
the Federal Government to a great extent, the level of 
participation was observation immediately after the 
catastrophe. It seems that there should be a plan in place when 
it comes to health care, food, water, justice system, and 
communications.
    There should be some plan that the Federal Government has 
when local and State government can't deliver. There are things 
that happen that will cause local and State government to be 
ineffective. At this point, the Federal Government has to 
become efficacious. I am not hearing about the plan that the 
Federal Government has when the State government can't step up 
and the local government can't, when they can't. Do you have 
something that is the equivalent of the MASH units, the Mobile 
Army Surgical Hospitals? Do you have the equivalent of some 
sort of mobile distribution system that is already in place and 
can be dispatched quickly? Do you have boots that can go on the 
ground immediately to give us that law and order that we 
finally saw in about day five, six, seven in Louisiana?
    Do we have a food distribution system that is in place in 
the event a State and local government can't deliver? Is that 
plan in place? If that plan is in place, my assumption is it is 
linked to some sort of network within various States so that it 
can be an effective plan. Mr. Baker, could you kindly respond, 
please?
    Mr. Baker. If I could give you a short answer, it is we 
have plans to provide all of those things in support of State 
and local governments when they ask. We do not, in general, 
plan to take over from the State and local governments for 
obvious reasons. They rarely believe that they are going to 
suffer that kind of loss of control.
    Mr. Green. Okay. Mr. Baker, with all due respect, and I 
appreciate what you are saying about the sovereignty, if you 
will, of the State government. I appreciate it. But we are 
talking about something now on a massive scale. God forgive 
that it would ever happen, hope that it won't happen, but let's 
assume that the State government is ineffective because it has 
been damaged severely. You must be prepared to deliver at this 
point in my opinion.
    Mr. Baker. Since we can deliver on request, we can also 
deliver when we determine that it is necessary to do so. I just 
want to caution that States are quite concerned if we started 
to plan to take over.
    Mr. Green. I don't want you to do so, but what I don't want 
to see is people on top of buildings with signs saying help me 
and the Federal Government flying over in planes and not 
helping. That is what I don't want to see. So there must be 
some means by which we never, ever, ever allow what happened in 
New Orleans to happen again. There must be some means by which 
we can prevent this. That is the plan that I am looking for.
    Mr. Baker. We share that hope.
    Mr. Green. Do we share the plan?
    Mr. Baker. We have the capability. We are working on 
additional----
    Mr. Green. I have the capability to do surgery with a 
certain amount of education, which I do not have right now. 
Okay.
    Mr. Baker. You are doing pretty well.
    Mr. Green. What I want is to know that my government is 
using the capability that it has so that it can produce a 
product. Thank you, Mr. Chairman. I yield back.
    Chairman Thompson. Thank you. We now recognize the 
gentlelady from New York, Ms. Lowey, for 5 minutes.
    Mrs. Lowey. Thank you very much, Mr. Chairman. Again 
Assistant Secretary Baker, we have been talking earlier in this 
hearing about communication problems that have plagued first 
responders in every emergency in the last 15 years. We have 
heard enough about Katrina. The fiscal year 2007 Homeland 
Security appropriations bill included multiple provisions that 
I had the privilege of championing with the help of our good 
Chairman related to first responder communications. Included 
were several provisions on planning and backup systems to 
implement the global networks went down, as in New Orleans. 
Earlier this year the FCC ended the digital television 
transmission spectrum auction without receiving the minimum bid 
to build the D block spectrum that was reserved for public 
safety. Addressing these issues should be one of the 
Department's top priorities. Assistant Secretary Baker, I was 
interested to read the portion of your testimony that promoted 
reverse 9/11 and enhanced 9/11.
    In New York, the State emergency management office has 
developed New York Alert, an all hazard Web-based alert and 
notification portal that can activate the emergency alert 
system and send blast fax, e-mail, text messages, phone calls, 
et cetera, to subscribers across the State or to customized 
groups. This sounds just like the communications network you 
are promoting that enhance resiliency. Correct?
    Mr. Baker. Yes.
    Mrs. Lowey. However, the Department has turned down 
requests to provide funding for this program. In fact, grant 
guidance for the FEMA Predisaster Mitigation Program explicitly 
excludes this type of program. I am really puzzled that one 
branch of DHS supports alert systems, but when it comes to 
providing funding another branch opposes it. Assistant 
Secretary Baker, can you tell me what you are doing to ensure 
communications resiliency and can you explain this?
    Mr. Baker. I am not familiar with the grant guidance that 
you are talking about. We are certainly supportive of New 
York's efforts to do the kinds of things that you are talking 
about.
    Mrs. Lowey. What does ``supportive'' mean? It is a good 
idea.
    Mr. Baker. It is a good idea. I would not say that we have 
failed to fund New York's efforts to respond to emergencies, to 
build homeland security programs across the board. The grants 
to New York City and State have been quite substantial for 
obvious reasons, because we think that they are under a 
substantial threat. Whether all of the grant programs are 
focused on new technologies or only some of them are available 
for that, I am not in a position to answer. But I will take a 
look at that and I will get back to you because, as I said in 
the testimony, and I have said here today, these new 
technologies are crucial for our ability to respond flexibly 
and show the resilience that the committee would like us to 
show and that we would like the citizens to be able to show.
    Mrs. Lowey. Well, I would appreciate you getting back to 
me, because the FEMA Predisaster Mitigation Program explicitly 
excludes this type of program, which is quite extraordinary to 
me. Thank you very much. Dr. Bailey, what lessons could DHS 
learn from AT&T to increase the likelihood that our 
communications networks will survive major incidents?
    Ms. Bailey. Wow. That is a loaded question. Well----
    Mrs. Lowey. Well, I think it is important. If we are 
talking about resilience and if we don't discuss the facts and 
we are not preparing and the chair, and I and many of us have 
been talking about this issue for 5, 6 years, yes.
    Ms. Bailey. Wow, lessons learned. Certainly the attention 
to--admitting up front that bad things will happen. I think Dr. 
Sheffi mentioned that early in one of his responses. Bad things 
happen all the time. So it is not just being prepared for the 
very rare but very severe, you know, devastating, you know, 
terrorist attack, but also the day-to-day nasty things that 
happen. The pool chemical warehouses that catch on fire and 
release chlorine gas, the train derailments and the like. All 
of those can in many ways be----
    Mrs. Lowey. I don't mean to interrupt, but I have a couple 
of seconds left.
    Ms. Bailey. Okay.
    Mrs. Lowey. But what from your procedures, from your 
technology, what could you teach not Assistant Secretary Baker, 
let's say what could you really show DHS and how do we get it 
done? You know, we have been having these hearings for years. 
The private sector knows they have to do it or else they are 
going to lose a lot of money. We are going to lose a lot of 
lives and money and everything else. So what could you teach 
us?
    Ms. Bailey. Wow. Well, certainly there are the physical 
threats as well as the cyber threats. We would be very 
interested, in fact we are sharing our approaches to cyber 
security, for example, with DHS to address both the prediction 
and prevention, which is surprisingly more significant of an 
opportunity than certainly AT&T ever expected until we started 
looking at the traffic profiles and realizing that there are 
signatures of attacks actually before they happen, and if you 
can leverage that signature, you can buy yourself planning time 
and preparation time that is extremely valuable to mitigate the 
impacts. So that is just one example of what AT&T can and would 
love to share with DHS in terms of our capabilities.
    Mrs. Lowey. My time is up, but I would hope that the 
expertise that AT&T has could be shared. In fact, I would hope 
we get to the point where DHS can be the initiator of some of 
this technology so we can all benefit, not that we want to 
compete with AT&T. But we thank you for your leadership. Thank 
you, Mr. Chairman.
    Chairman Thompson. Thank you very much. We now recognize 
the gentlelady from California, Ms. Harman, for 5 minutes.
    Ms. Harman. Thank you, Mr. Chairman. I want to commend you 
for holding the hearing on this important subject and to make 
certain that those listening in know that the Subcommittee on 
Intelligence, which I chair, will hold another hearing on this 
subject in a few days. Steve Flynn, a noted author, will be one 
of our witnesses. I think it is very important that we consider 
resilience as we consider whether our steps to protect our 
homeland are adequate.
    Ms. Harman. I also want to apologize to you and to our 
witnesses for not being here during their testimony. I had two 
other hearings at the same time, and my little body went to 
both of those and is now here, hoping to ask a few questions.
    Finally, I want to welcome especially Mr. Southers, who 
hails from Los Angeles and who works for the Los Angeles World 
Airports. LAX is in my district's backyard. I surround LAX, and 
it also happens to be, as I am sure he said, one of the top 
terrorist targets in the United States with a history of prior 
attacks.
    Make no mistake, if an airport is attacked in our future, 
it is more likely to be LAX than any other airport; and that 
gets my attention, and that is why mine is a very familiar 
voice in the halls of the LAX administrators, maybe a little 
too familiar. I stay up at night, worrying about what could 
happen to that airport and particularly worrying about threats 
posed by vehicle-borne explosives, which according to the RAND 
Corporation and to others who have looked at this is the most 
likely kind of threat that could occur at that airport.
    So I applaud your effort, Mr. Southers, to move beyond the 
traditional role of airport security teams. Real-time 
intelligence is a crucial tool to protecting critical 
infrastructure such as LAX, and your airport randomized vehicle 
checkpoints, which I have noticed, since I go through them all 
the time, are praiseworthy.
    Critical infrastructure protection units are probably very 
useful as well, but as you note in your testimony, it was 
RAND--which I just mentioned--4 years ago, which determined 
that curbside bombs, including large truck bombs, were the top 
test to LAX and to other major U.S. airports.
    Seven airline terminals surround the horseshoe. It 
literally looks like a horseshoe that one drives around on two 
levels at LAX. Each terminal is often extremely crowded, with 
lines extending out the door. It is not hard to imagine what 
kind of mischief could occur. Yet, 13 years after Oklahoma City 
and 1 year after Glasgow, we are not ready.
    So, in thinking about resilience, I want to urge you to 
make certain that this summer, as promised, LAX and LAWA will 
install vehicle barriers--probably similar to the large flower 
pots, these concrete flower pots, that adorn the Capitol--at 
the most vulnerable points in that horseshoe, both at the upper 
tier and at the lower tier.
    I do not know if a vote has just been called. No. So my 
time is still limited. I only have about a minute and a half, 
but I wanted to give you a chance, Mr. Southers, or anyone else 
who would like to opine to add to what I have just said.
    Finally, let me just get this in while Mr. Lungren is here. 
As he knows, we coauthored the Safe Ports Act. One of the 
unique features of that act was a resiliency plan. This 
committee has been thinking about this well ahead of this year, 
and it pleases me to hear that many of you are also thinking 
about it. So I did want to commend you.
    Mr. Southers.
    Mr. Southers. Congresswoman, first, I do want to say, thank 
you for your support. Your voice is always welcomed at the 
airport. It certainly has been what has initiated some movement 
on our part.
    I am happy to say that the first phase of the bollard plan 
is going to go in this summer. In fact, I have personally 
walked the upper level myself. Despite some challenges with 
regard to the level of protection necessary, I can assure you 
that the rating of those bollards is going to withstand 
vehicles of the impact of the attacks we have seen around the 
world. We certainly do still share some of those issues with 
regard to people's being on the curbside, and we are trying to 
mitigate that as much as possible.
    One of the things we are able to do is to work a little bit 
closer with TSA in getting more screeners in there, 
particularly at Southwest, at Tom Bradley and at Terminals 6 
and 7, to get them inside. While they are outside, we have 
stepped up our K-9 explosive detection teams out there.
    So we have got a presence. We also have more of a presence 
of our officers as well. So we are certainly aware of that.
    It has been quite some time, as you mentioned. This summer, 
we look forward to moving forward not only with the terminals, 
but with LAX fuel and with some of the other gates around the 
airport that you have mentioned in the past. Those phases will 
all start this summer.
    Ms. Harman. Well, I thank you for that answer.
    My time has expired, but I would just add that there are 
vulnerable airports all around America. As we think about 
resiliency, that is a place we have to look.
    I do commend you for your efforts, and I will be looking 
for those flower pots in the very near future.
    Thank you, Mr. Chairman.
    Chairman Thompson. Thank you very much.
    I would like to thank the witnesses for their valuable 
testimony and the members for their very excellent questions.
    The members of the committee may have additional questions 
for you, and we will ask that you respond expeditiously in 
writing to these questions, as a couple of witnesses have 
already agreed to do.
    Chairman Thompson. Hearing no further business, the 
committee stands adjourned.
    [Whereupon, at 12:05 p.m., the committee was adjourned.]


                            A P P E N D I X

                              ----------                              

 Questions From Honorable Mike Rogers of Alabama for Stewart A. Baker, 
    Assistant Secretary for Policy, Department of Homeland Security
               immigration and customs enforcement (ice)
    Question 1. While the number of Border Patrol officers has doubled 
over the recent past to about 18,000, the number of ICE agents has 
remained relatively level at about 6,000.
    Can the Department meet its immigration enforcement 
responsibilities with so few immigration agents?
    Given the national emphasis on the importance of enforcement of 
immigration law, how many ICE agents does the Department need to 
function effectively?
    Answer. The Department has requested increases in funding for 
Immigration and Customs Enforcement that support the administration's 
Secure Border Initiative (SBI), controlling the border and executing a 
comprehensive interior enforcement strategy. In the fiscal year 2009 
request, the President requested $5.7 billion for ICE. The 2009 request 
includes resources for 87 Office of Investigations (OI) Special Agents 
and 44 positions for the Visa Security Program and the Office of 
Professional Responsibility (OPR), as well as increases for detention 
beds and State and local law enforcement coordination.
    In addition, 74 positions along with 1,000 additional beds have 
been requested for ICE's Office of Detention and Removal Operations 
(DRO) in order to deal with removal costs required to meet current 
demand and the demand generated by increased enforcement activities 
associated with SBI and special authority granted to State and local 
law enforcement officers under Section 287(g) of the Immigration and 
Nationality Act. These positions included 20 Deportation Officers, 40 
Immigration Enforcement Agents, 8 Deportation Assistants and 6 support 
positions.
    The number of authorized positions for DRO has nearly doubled from 
approximately 4,000 positions in fiscal year 2005 to 7,734 positions in 
fiscal year 2008. It is also important to note that the Criminal Alien 
Program (CAP) was transferred from the OI to DRO, and the Office of 
International Affairs (OIA), which had been a part of OI, is now a 
stand-alone entity within ICE. Despite the realignment of these 
resources, OI still maintains approximately 6,000 Special Agents 
nationwide.
    As a result of increased funding over the past several fiscal 
years, ICE has achieved many successes. In fiscal year 2007, for 
example, ICE's investigative and detention and removal accomplishments 
include:
  <bullet> Enhanced Immigration Enforcement: Initiated 1,093 worksite 
        enforcement investigative cases, which resulted in 863 criminal 
        arrests (compared to 716 in fiscal year 2006) and 4,077 
        administrative arrests.
  <bullet> Increased Compliance Enforcement: ICE implemented a high-
        intensity compliance enforcement operation to detect, deter, 
        and disrupt terrorist operatives who sought to exploit the non-
        immigrant process in order to remain illegally in the United 
        States. The operation resulted in 249 completed investigations 
        and 73 arrests.
  <bullet> Increased Human Smuggling Investigations: ICE initiated 
        2,528 human smuggling investigative cases, which resulted in 
        1,821 criminal arrests, 1,150 indictments, 1,209 convictions, 
        and seized $16,400,283 in related monetary instruments.
  <bullet> Apprehended Sexual Predators of Children: ICE achieved a 
        total of 10,434 criminal and administrative arrests through 
        Operation Predator.
  <bullet> Increased Commercial Fraud and Intellectual Property Rights 
        Investigations: ICE initiated 1,275 Commercial Fraud and 
        Intellectual Property Rights investigative cases, which 
        resulted in 246 criminal arrests, 178 indictments, and 196 
        convictions.
  <bullet> Targeted Transnational Gangs: ICE arrested a total of 3,302 
        gang members and associates Nation-wide.
  <bullet> Furthered Nation-wide Document-Fraud Prevention Efforts: ICE 
        initiated 1,309 fraud investigations, leading to a record 1,531 
        arrests and 1,178 convictions.
  <bullet> Strengthened Border Enforcement Security Task Forces 
        (BESTs): Task Forces collectively made 516 criminal arrests, 
        1,037 administrative arrests, seized over 49,552 pounds of 
        marijuana, 1,326 pounds of cocaine, 151 pounds of 
        methamphetamine, 135 pounds of heroin, 237 weapons, 12 
        explosives, and approximately $2.5 million in U.S. currency.
  <bullet> Enforcement Against Visa Violators: ICE investigators worked 
        to ensure compliance with the Nation's immigration laws among 
        student and exchange visitors and other nonimmigrant visitors 
        to the United States. ICE arrested 1,558 high-risk, non-
        immigrant status violators.
  <bullet> Visa Security Program: ICE expanded overseas deployment to 
        nine visa security posts in eight countries and trained more 
        than 40 Special Agents to serve as visa security officers. ICE 
        investigations through this program resulted in the denial of 
        more than 750 visas and the initiation of more than 140 
        investigations.
  <bullet> Set New Record for Alien Removals: ICE removed more than 
        276,000 illegal aliens, including voluntary removals, from the 
        country--a record for the agency and a 45 percent increase over 
        the number of removals during the prior fiscal year.
  <bullet> Removed Criminal Aliens: ICE initiated removal proceedings 
        against 164,296 criminal aliens encountered in U.S. jails and 
        prisons, which exceeds the Criminal Alien Program fiscal year 
        2006 total by over 140 percent.
  <bullet> Leveraged Alternatives to Detention: ICE processed 8,300 
        non-detained aliens through the Alternatives to Detention 
        program, including 1,989 Intensive Supervision Appearance 
        Program participants and approximately 6,300 Electronic 
        Monitoring Program participants.
  <bullet> Increased Fugitive Operations Team Arrests: ICE added an 
        additional 23 Fugitive Operation Teams, for a total of 75, 
        which arrested over 30,000 illegal aliens. ICE processed and 
        eliminated more than 100,000 fugitive alien cases and reduced 
        the backlog of fugitive cases for the first time in history.
  <bullet> Increased Removal Process Efficiencies: ICE's Detention 
        Enforcement and Processing Offenders by Remote Technology 
        (DEPORT) Center made it possible to identify and screen 
        criminal aliens incarcerated in Federal prisons to ensure their 
        removal upon the completion of their sentences. ICE also 
        deployed the Electronic Travel Document System to all 24 ICE 
        DRO Field Offices and consulates of Guatemala, Honduras, and El 
        Salvador, decreasing the number of days required to issue 
        travel documents from 14 days to 6 days.
  <bullet> Initiated Significant Financial Investigations: ICE 
        initiated 3,069 financial investigations, resulting in 1,394 
        arrests and 897 convictions.
  <bullet> Increased Number of Trade Units: To combat trade-based money 
        laundering, ICE now has Trade Transparency Units (TTUs) in 
        place in Colombia, Paraguay, Argentina, and Brazil. In fiscal 
        year 2007, ICE TTUs initiated 95 trade-based money laundering 
        investigations and generated 36 investigative referrals.
  <bullet> Increased Arms and Strategic Technology Investigations: ICE 
        increased its arms and strategic technology investigations, 
        resulting in 186 arrests (compared to 144 in fiscal year 2006), 
        178 indictments, and 115 convictions.
    Question 2. In my home State of Alabama, a number of county 
sheriffs have reported a complete lack of response on ICE's part to 
dealing with detained illegal aliens. I understand that this is due to 
inadequate numbers of Detention and Removal Officers, and insufficient 
bed space.
    How does the Department plan to deal with this growing inability to 
handle the increasing number of immigrant detainees?
    Answer. In the past 3 fiscal years, the administration has 
substantially increased ICE resources. As I outlined in detail in my 
response above, the President requested $5.7 billion for ICE in his 
fiscal year 2009 budget, which represents an increase of approximately 
12 percent over fiscal year 2008, excluding emergency funding provided 
by Congress. Program increases total over $160 million and target the 
priority areas of this administration to allow ICE to be a highly 
valuable contributor to the Secure Border Initiative (SBI), enforce 
customs laws critical to the Nation's security, and ensure we are 
protecting the American public. ICE has made tremendous progress in 
immigration enforcement through greater innovation with its resources 
combined with more effective oversight.
    In Alabama, there are a total of 89 recognized facilities. All 
Federal and State facilities, as well as seven county facilities have 
100 percent screening by ICE. The remaining 74 county and city 
facilities receive limited coverage. In fiscal year 2008, Congress 
provided funding for an additional Criminal Alien Program (CAP) team 
for Montgomery, Alabama. This CAP team is in the process of being hired 
and deployed to Montgomery, Alabama. Since September 10, 2003, ICE has 
had a Memorandum of Agreement (MOA) with the Alabama Department of 
Public Safety. In addition, three other Alabama law enforcement 
agencies (the Prattville Police Department, the Etowah County Sheriff's 
Office, and the Huntsville Police Department) have all applied for 
287(g) Delegation of Authority. These applications are currently 
pending.
    To continue to improve our responsiveness to States and localities, 
ICE has developed Secure Communities, A Comprehensive Plan to Identify 
and Remove Criminal Aliens. In order to ensure no criminal alien is 
released into the community due to lack of detention space, ICE must 
expand its number of available beds to cover increased detention needs 
generated by the plan. The fiscal year 2008 Appropriation provided ICE 
with $200 million to develop this plan, and approved an increase of 
4,500 detention beds for an annual average daily population of 32,000. 
ICE uses a detention space management model to help determine where 
detention space should be added. As the plan is implemented, ICE will 
review bed detention needs.
    Secure Communities consists of the following strategic goals:
  <bullet> Strategic Goal 1.--Identify and process all criminal aliens 
        amenable for removal while in Federal, State, and local 
        custody;
  <bullet> Strategic Goal 2.--Enhance current detention strategies to 
        ensure no removable criminal alien is released into the 
        community due to a lack of detention space or an appropriate 
        alternative to detention;
  <bullet> Strategic Goal 3.--Implement removal initiatives that 
        shorten the time criminal aliens remain in ICE custody prior to 
        removal, thereby maximizing the use of detention resources and 
        reducing cost; and
  <bullet> Strategic Goal 4.--Maximize cost effectiveness and long-term 
        success through deterrence and reduced recidivism of criminal 
        aliens returning to the United States.
    Question 3a. One of my concerns is the nature of the training that 
ICE agents receive in customs and immigration. In my State of Alabama, 
many agents work customs at the ports, but very few are available for 
immigration matters. If we split the training to have some agents focus 
on customs and others specialize in immigration, it would seem there 
would be more officers to handle immigration enforcement.
    Do all incoming agents receive the same training, or do they 
specialize in one area or the other?
    Answer. While U.S. Customs and Border Protection (CBP) works to 
secure the Nation's borders at and between the official ports of entry, 
ICE Special Agents are responsible for investigating a range of issues 
that may threaten national security within the interior of the United 
States. Both agencies work closely to secure our homeland. 
Additionally, by bringing together customs and immigration enforcement, 
DHS can fight crime and terrorist activity in ways not possible before 
the founding of DHS. Investigators on immigration cases can track the 
money trails that support smuggling and document fraud operations. 
Financial investigators can use immigration violations to build cases 
against criminals. ICE brings all of its powerful authorities to bear 
on all cases, requiring agents to be sufficiently trained on all of 
those authorities. Accordingly, all ICE Special Agents receive 
instruction in both customs and immigration law, and are trained to 
enforce both.
    Question 3b. What about agents who were working prior to the merger 
that created ICE in March 2003?
    Answer. Special Agents hired prior to the merger were cross-trained 
in one of two approved programs. The program for Customs Agents 
provided immigration law/enforcement practices and program for 
Immigration Agents provided customs law/enforcement practices. Every 
Agent in the agency was required to take and successfully be tested in 
the requisite cross-training program.

                                 <all>

</pre></body></html>
